<html>
<title> - PRIVATE SECTOR INFORMATION SHARING: WHAT IS IT, WHO DOES IT, AND WHAT'S WORKING AT DHS?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                  PRIVATE SECTOR INFORMATION SHARING:
          WHAT IS IT, WHO DOES IT, AND WHAT'S WORKING AT DHS?

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
                        INFORMATION SHARING, AND
                       TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2007

                               __________

                           Serial No. 110-62

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
48-957                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     JANE HARMAN, California, Chair

NORMAN D. DICKS, Washington          DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER P. CARNEY, Pennsylvania  CHARLES W. DENT, Pennsylvania
ED PERLMUTTER, Colorado              PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                 Thomas M. Finan, Director and Counsel

                        Brandon Declet, Counsel

                   Natalie Nixon, Deputy Chief Clerk

        Deron McElroy, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Jane Harman, a Representative in Congress from the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable David G. Reichert, a Representative in Congress 
  from the State of Washington, Ranking Member, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     2
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania.................................    26
The Honorable Charles W. Dent, a Representative in Congress from 
  the State of Pennsylvania......................................    44
The Honorable Norman D. Dicks, a Representative in Congress from 
  the State of Washington........................................    24

                               Witnesses
                                Panel I

Mr. R. James Caverly, Director, Infrastructure Partnerships 
  Division, Infrastructure Protection and Preparedness 
  Directorate, Department of Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. James M. Chaparro, Deputy Assistant Secretary, Office of 
  Intelligence & Analysis, Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
Ms. Melissa Smislova, Director, Homeland Infrastructure Threat & 
  Risk Analysis Center, Department of Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    10

                                Panel II

Mr. Richard E. Hovel, Senior Aviation & Homeland Security 
  Advisor, The Boeing Company:
  Oral Statement.................................................    35
  Prepared Statement.............................................    36
Mr. Lester J. Johnson, Manager of Investigations and Crisis 
  Management, SCANA Corporation:
  Oral Statement.................................................    29
  Prepared Statement.............................................    30
Mr. John M. Meenan, Executive Vice President and COO, Air 
  Transport Association of America:
  Oral Statement.................................................    33
  Prepared Statemen..............................................    34


PRIVATE SECTOR SHARING: WHAT IS IT, WHO DOES IT, AND WHAT'S WORKING AT 
                                  DHS?

                              ----------                              


                        Thursday, July 26, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman 
presiding.
    Present: Representatives Harman, Dicks, Carney, Reichert, 
and Dent.
    Ms. Harman. Good morning, everyone. We are pleased to be 
joined by our ranking member, Mr. Reichert, and our colleague, 
Mr. Dicks, and to welcome our panel and our second panel as 
well.
    A few years ago the Homeland Security Department put out an 
endless, embarrassing list of critical national infrastructure 
that included everything from miniature golf courses to public 
swimming pools; in other words, a list that was almost useless 
to the private sector and to first responders.
    Two days ago the subcommittee had a Top Secret briefing on 
the Department of Homeland Security's Office of Infrastructure 
Protection Tier 1, Tier 2 program, and a list that once made 
people roll their eyes has been transformed. This is a good 
news story, and I congratulate the Department for getting its 
arms around what infrastructure is truly vulnerable and merits 
scarce Federal financial support.
    Eighty-five percent of the Nation's critical infrastructure 
is owned by the private sector. It is not just the 
infrastructure, but most of the people of our country work in 
that infrastructure and most of the IT in our country is in 
that infrastructure. If we are to succeed in protecting that 
infrastructure and the people who work there, a better 
partnership between DHS and the private sector must be forged 
and it must work.
    The news is not all good, and at this hearing we will hear 
from private sector firms about their inability, despite trying 
very hard to engage the Department and to work with the 
Department as a team. As any good business person knows, good 
customer service means giving customers what they want and 
need. Most importantly, the private sector needs to know how to 
prepare for and hopefully to prevent attacks against 
facilities, the personnel who work there and the surrounding 
communities. This is common sense.
    What the subcommittee wants to know today is where the gaps 
are when it comes to this kind of private sector information 
sharing so we and the Department of Homeland Security can be 
effective in filling them. Here's the bottom line: If 
intelligence products don't tell businesses what actions to 
take in preparation for or in response to a threat, then it is 
not intelligence.
    It is not as though the Department hasn't tried to be fair. 
In 2005, the Department's Private Sector Information Sharing 
Task Force issued a report that detailed how Homeland Security 
information should be shared with the private sector and 
recommended key steps to make it happen. But we are not clear 
how much progress has been made. In 2006, the Department's 
National Infrastructure Advisory Council issued a separate 
report on public-private intelligence coordination with its 
recommendations. We are not sure how that is going.
    I am hoping our hearing today will shed some light on the 
status of these reports, but more important on how well the 
Department is implementing critical information sharing ideas 
with the private sector.
    Our first panel of witnesses represents the key drivers of 
private sector information sharing at the Department. The 
Office of Intelligence and Analysis, the Infrastructure 
Protection and Preparedness Division and HITRAC.
    I will ask, and I know all of our members want to hear, how 
each of your offices is doing to support private sector 
information sharing, how you are working together and where, if 
anywhere, there is duplication of effort. I also want to know 
how you are incorporating private sector input into the 
intelligence products you create, how successful those efforts 
are and what you are doing to improve on past performance.
    We have found that with respect to intelligence generally, 
if you include the people who are going to use the information 
in the design of the information products, it becomes more 
useful. This, as they say in the intelligence business, is a 
``slam dunk.''
    Our second panel will be private sector witnesses, and I 
hope that they will be listening carefully to what the 
government witnesses have to say and offer constructive 
criticism.
    The only way to ensure that relevant Homeland Security 
information is shared between the government and its customers, 
as I just said, whether they are law enforcement, first 
responder community or the private sector, is by working 
together to build a team. So I hope that after today our team 
will be stronger and all of you, next time you come back, will 
have good news to report.
    Again, I congratulate the Department for the progress it is 
making, and I now yield to Ranking Member Reichert for his 
opening remarks.
    Mr. Reichert. Thank you, Madam Chair. Thank you for your 
leadership on this issue and for holding this important 
hearing.
    And welcome to our witnesses this morning. Thank you for 
being here.
    Our hearing today is about information sharing with the 
private sector, a critical component of our Federal 
government's information sharing efforts. As you know, the 
Seattle area is home to many businesses that are critical to 
our Nation, include Boeing, Microsoft, Amazon.com and others.
    While these and other private sector companies need 
information, we must also remember that information sharing is 
a two-way street. I believe that the Federal Government has a 
duty to provide situational awareness and share information on 
threats and vulnerabilities to representatives of the private 
sector. Likewise, the private sector has similar responsibility 
to provide information and to share with the Federal 
Government.
    Oftentimes, the reason for not sharing is similar, the 
government or the company in question is concerned that a 
secret or a vulnerability will be revealed. The critical 
element to this relationship, I think we all recognize, is 
trust, specifically, cooperative partnerships that are based on 
trust. An essential element to building this trust is to 
protect the Critical Infrastructure Information Program, PCII. 
This program is designed to encourage private industry to share 
its sensitive, security-related business information by 
protecting information from public disclosure under the Freedom 
of Information Act, State and local disclosure laws and in 
civil litigation.
    It is essential that PCII is successful. I believe it is 
important to ensure businesses have the proper incentives to 
share information and trust their Federal partners. I will be 
interested in hearing today how PCII is progressing and what 
may be done to improve participation. I would also like to hear 
what all of our witnesses have to say about the Homeland 
Security Information Network, specifically the HSIN critical 
sector portal.
    I look forward to your testimony and very much appreciate 
your presence here today, taking the time out of your busy 
schedule to be part of this hearing. Thank you.
    I yield.
    Ms. Harman. I thank the ranking member and would point out 
that other members of the committee are permitted, under our 
rules, to submit statements, opening statements for the record.
    Ms. Harman. It is now time to welcome our first panel.
    Our first witness, Mr. James Chaparro, is the Deputy 
Assistant Secretary for Mission Integration in the Office of 
Intelligence and Analysis, that is, I&A, at the Department of 
Homeland Security. There is no possible way that fits on a 
business card.
    He is responsible for the direction and oversight of I&A's 
program development and strategic planning efforts, as well as 
I&A liaison and information sharing activities within the U.S. 
and foreign intelligence communities; Federal, State and local 
law enforcement agencies; and other components of the U.S. 
Government. Mr. Chaparro serves as the Executive Director for 
the Homeland Security Intelligence Council, which was 
established to oversee and direct intelligence integration 
efforts within the Department.
    Our second witness, Ms. Melissa Smislova, is the Director 
of the Homeland Infrastructure Threat and Risk Analysis Center, 
or HITRAC. HITRAC is a joint program office consisting of 
intelligence analysts from I&A and sector analysts from the 
Office of National Protection Programs Directorate and is 
charged with evaluating threats for homeland infrastructure.
    And, again, I think the Tier 1-Tier 2 effort has come from 
the bottom of a deep hole into a very impressive place.
    Our third witness, Mr. Jim Caverly, is the Director of the 
Infrastructure Partnerships Division, IPD, which resides within 
the Infrastructure Protection and Preparedness Directorate 
within the Department of Homeland Security. The Infrastructure 
Partnerships Division is responsible for sustaining core sector 
expertise, maintaining operational awareness and fostering 
working level relationships with industry, State and local 
government and Federal agencies representing vital 
infrastructure threats.
    Without objection, your full statements will be inserted in 
the record. I would urge each of you to look at the little 
clock and to summarize your statement in 5 minutes or less; and 
we will then ask a round of questions before moving to our 
second panel.
    Ms. Harman. We will start with Mr. Chaparro.

  STATEMENT OF JAMES M. CHAPARRO, DEPUTY ASSISTANT SECRETARY, 
OFFICE OF INTELLIGENCE & ANALYSIS, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Chaparro. Thank you, Chairman Harman and Ranking Member 
Reichert and distinguished members of the committee. I am 
pleased to have the opportunity to testify today about our 
information sharing efforts with the private sector.
    I will start off by saying the men and women of DHS 
intelligence work day and night, weekends, holidays under very 
difficult circumstances to do the work that we do to protect 
the homeland, but we will not tire. We cannot rest and we 
cannot fail in what we do. Our mission is important and the 
threats are very real.
    Just last week the Director of National Intelligence 
released a National Intelligence Assessment, or an NIE. An NIE, 
as you know, ma'am, offers a consolidated assessment of the 
Community and involves the work of the very best and brightest 
analytic minds that this country has to offer.
    The threats to the homeland outlined in the NIE, I just 
want to talk about a couple of the key judgments very quickly.
    Al-Qa'ida is and will remain a very serious threat to the 
homeland. Its central leadership continues to plot major plans 
or has plans for major plots against us. They will continue to 
intensify efforts to send operatives to the homeland, their 
plotting will likely continue to focus on prominent political, 
economic and infrastructure targets with a goal of producing 
mass casualties and visually dramatic destruction. They will 
continue to try to acquire chemical, biological and 
radiological capabilities, and they will not hesitate to use 
them.
    It is DHS's shared responsibility to ensure the private 
sector has the intelligence it needs to better understand the 
threats that it faces and to understand their vulnerabilities 
and develop mitigation strategies to counter those threats.
    We view the private sector as a vital partner in our 
efforts. I&A plays a critical role in providing threat 
intelligence to the owners and operators of our nation's 
infrastructure and key resources, or CI/KR, as it is commonly 
referred to.
    In many ways, I&A's role within the National Intelligence 
Community is unique in the way it interfaces with the private 
sector. Our success in serving the private sector hinges upon 
our ability to share relevant, actionable and timely 
intelligence with the owners and operators of CI/KR. They 
deserve absolutely nothing less. We have statutory obligations 
and department-wide responsibilities for assessing and 
analyzing intelligence threats, and we recognize that the 
private sector needs to be a key part of our production cycle.
    Close cooperation with the private sector allows us to help 
harvest key information that they see during their day-to-day 
interactions and also leveraging private sector information 
provides us a better understanding of their vulnerabilities and 
helps us fill critical intelligence gaps. We must, therefore, 
have a robust two-way flow of information.
    We focus a great deal of energy in working with the private 
sector, both through our State and Local Fusion Center Program 
Office and through HITRAC which--I will not delve too much into 
HITRAC, because you are fortunate to have Ms. Smislova today.
    Developing the actionable intelligence that the private 
sector needs is of little value if we cannot get that 
intelligence into the hands of the people who need it in a 
timely and efficient manner. So we have developed a very robust 
protection management division to disseminate our products and 
ensure that they wind up in the hands of the people who need to 
see them. This is a difficult task; the private sector is 
enormous and has many different sectors with many different 
needs.
    We use comprehensive e-mail dissemination lists, we post 
products in a variety of formats, including classified-
unclassified portals. And given the fact that posting an e-
mailing product never does the job completely, we also make 
sure that we engage in extensive outreach with the private 
sector; and we are often out briefing our products through both 
the State and Local Fusion Center Program, as well HITRAC.
    We are moving very rapidly with our fusion center program, 
thanks to great people in the support that we have received 
from this committee. We are rapidly expanding our deployment of 
officers to the field as well as our Homeland Secure Data 
Network, HSDN, and this is critical that we are able to 
interface at the local level with the private sector State and 
local law enforcement and State and local governments to be 
better able to carry out intelligence missions.
    In summary, what I want to say, because I am running very 
short on time, is that the private sector needs context; they 
didn't need to hear spun-up threats that make them run off and 
expend resources on threats that are not credible. We try and 
add context to those threats and ensure that they receive the 
information that they need.
    Thank you.
    Ms. Harman. Thank you, right on time.
    [The statement of Mr. Chapparo follows:]

                Prepared Statement of James M. Chaparro

    Thank you Chairwoman Harman, Ranking Member Reichert, and Members 
of the Sub Committee. I am pleased that you have provided me with the 
opportunity to appear before your Committee to discuss our role in 
sharing intelligence with the private sector, and to discuss the 
lessons we have learned.
    The Office of Intelligence and Analysis (I&A) is transforming the 
way that DHS performs its intelligence responsibilities. As you know, 
I&A has established five overarching and bold priorities to carry out 
this transformation. Each of these focus areas are designed to allow us 
to provide our customers with the highest quality intelligence 
available, to protect the homeland, and to serve as good stewards of 
the resources that the Congress has provided us to carry out our 
mission. Our priorities are:
        <bullet> mproving the quality and timeliness of intelligence 
        analysis across the Department;
        <bullet> Integrating DHS Intelligence across its several 
        components;
        <bullet> Strengthening our support to state, local, and tribal 
        authorities, as well as to the private sector;
        <bullet> Ensuring that DHS Intelligence takes its full place in 
        the Intelligence Community; and,
        <bullet> Solidifying our relationship with Congress by 
        improving our transparency and responsiveness.

The Threats are Real and Our Work is Important:
    Just last week, the Director of National Intelligence released a 
national intelligence estimate (NIE) that described the nature of the 
threat that we face in the Homeland. An NIE represents the Intelligence 
Community's most authoritative views on national security issues, is 
the product of extensive research and coordination, and involves the 
work of the best and brightest analytic minds that this country has to 
offer.

    Among other things, the NIE assessed:
        <bullet> Al-Qa'ida is and will remain the most serious 
        terrorist threat to the Homeland, as its central leadership 
        continues to plan high-impact plots, while pushing others in 
        extremist Sunni communities to mimic its efforts and to 
        supplement its capabilities;
        <bullet> Al-Qa'ida will intensify its efforts to put operatives 
        in the United States;
        <bullet> Al-Qa'ida's Homeland plotting is likely to continue to 
        focus on prominentpolitical, economic, and infrastructure 
        targets with the goal of producing mass casualties, visually 
        dramatic destruction, significant economic aftershocks, and/or 
        fear among the US population.
    I&A plays a critical role in providing vital intelligence to the 
owners and operators of our nation's critical infrastructure and key 
resources (CI/KR). In many respects, I&A's role is unique within the 
U.S. Intelligence Community (IC). We view our statutorily created 
partnerships with the private sector as critical to the success of I&A, 
and critical to the success of DHS.
    I&A's success in serving the private sector hinges upon our ability 
to share actionable, timely and relevant intelligence. Our CI/KR owners 
and operators deserve nothing less. The Department of Homeland Security 
has been a leader in establishing new approaches of information sharing 
- including sharing with the private sector. To be fully effective in 
these approaches, we must partner not only with the private sector, but 
with other parts of the intelligence community such as the FBI, and 
with other agencies within DHS and the Federal government.
    Because of I&A's unique capabilities and department-wide 
responsibilities for assessing and analyzing all terrorism, homeland 
security, and related law enforcement and intelligence information 
received by the Department, Secretary Chertoff has designated I&A as 
the Department's executive agent for information sharing. In this 
capacity, we have created many mechanisms to bring together DHS' vast 
knowledge base and expertise to strengthen information sharing across 
the Department and, even more importantly, to share it with our 
external partners.
    I would like to impart upon you today some of the information 
sharing efforts that DHS is leading, as well as describing some of our 
efforts with our Federal and intelligence community partners. The 
central theme you will see throughout is that we view the private 
sector as a vital partner in our efforts, just as we view the FBI, and 
our state and local government partners.
    As I noted above, the NIE assesses that Al-Qa'ida's focus includes 
economic and infrastructure targets. A large number of these potential 
targets are owned and/or operated by our private sector partners. It is 
our shared goal--our shared responsibility--to ensure that the private 
sector has the intelligence it needs to better understand the threats 
they face, as well as the vulnerabilities that can be exploited by our 
enemies. The private sector is more than just a customer of our 
intelligence products; they are a critical part of our production 
cycle. Given the size, diversity and complexity of the private sector, 
close cooperation with them is key to helping us understand the threats 
and vulnerabilities that exist. The private sector provides us with 
windows into understanding the threat based on their day-to-day 
observations and interactions across the country, helps us better 
understand their intelligence needs, and provides us with unique 
perspectives that help us fill intelligence gaps. We must therefore 
ensure a robust two-way flow of information between the Department and 
our private sector partners, as well as between our federal, state, 
local and tribal partners

Strengthening the Flow of Intelligence
    DHS has focused a great deal of energy to ensure that our private 
sector partners receive the very best intelligence available. A 
linchpin of this effort is the Homeland Intelligence and Threat 
Analysis Center (HITRAC), a three-way partnership between our Office of 
Infrastructure Protection, I&A and the Private Sector. I will not delve 
deeply into how HITRAC functions, because we are fortunate that Ms. 
Smislova, HITRAC's Director, is here to testify today. What I will say, 
however, is that HITRAC produces a variety of classified and 
unclassified intelligence products specifically tailored to serve 
private sector intelligence needs which is a unique effort within the 
Federal government. In addition to working with the DHS Office of 
Infrastructure Protection and its private sector partners, HITRAC 
closely coordinates its efforts with agencies such as the FBI, 
Transportation Security Administration, and the National Counter 
Terrorism Center.
    Good intelligence is of little value unless it can be put into the 
hands of those who need it. I&A has established a strong Production 
Management (PM) division to ensure that our intelligence products, 
including those produced by HITRAC, are disseminated in a timely and 
efficient manner. Just as HITRAC's customers are diverse, so too must 
be our intelligence dissemination methods.
    The I&A PM Division maintains comprehensive email dissemination 
lists, specifically designed to serve private sector partners at the 
unclassified level. Email distribution occurs using the Sector 
Coordinating Councils (SCCs), and when appropriate, Information Sharing 
and Analysis Centers (ISACs) list points of contact across the 17 CI/KR 
sectors : Chemical, Commercial Facilities, Dams, Emergency Services, 
Energy, Banking and Finance Agriculture and Food, Government 
Facilities, Public Health and Healthcare, National Monuments and Icons, 
Information Technology, Commercial Nuclear Reactors, Materials and 
Waste , Postal & Shipping, Telecommunications, Defense Industrial Base, 
Drinking Water and Water Treatment Facilities, and Transportation 
(including Aviation, Maritime, Railroad, Mass Transit, Highway),. In 
addition to the email to the SCCs and ISACs, products are sent to the 
DHS National Infrastructure Coordinating Center (NICC) for posting to 
the corresponding unclassified HSIN--Critical Sectors where more 
private sector partners can view the products. Similarly, products 
classified at the Secret level are posted on the Homeland Secure Data 
Network (HSDN)--a network that is rapidly expanding, thanks in part to 
our efforts in the State and Local Fusion Center (SLFC) program.
    However, sending emails and posting products is not enough. I&A's 
analysts also engage in extensive outreach efforts directly with 
private sector representatives, through HITRAC and the State and Local 
relationships. This effort generally is initiated by the State or 
locality itself and, is designed to push and pull information that 
directly relates to threats within a particular geographic region 
where, for example, that individual sector may be headquartered or 
maintain critical assets, such as plants or distribution centers. The 
response has been positive.
    Moreover, state and local fusion centers (SLFCs) are increasingly 
helping to bridge the gap between sector specific threats and 
geographic threats, by such efforts as involving plant managers and 
small businesses - not just corporate offices--in fusion center 
activities. The private sector wants relationships built on trust. I&A 
is taking full advantage of the fact that many SLFC officials have 
already built strong private sector ties in their communities.
    An example of this local dynamic is in Illinois, where the State 
Terrorism Intelligence Center (STIC) is using their State HSIN Portal 
as the primary tool for information sharing with the Private Sector. 
Major companies like Caterpillar, McDonald's, Cargill, and John Deere 
are part of this process, as well as smaller businesses that were 
identified through State incorporation listings.
    Maryland is another fine example. Maryland has formed a Private 
Sector Council that has leaders from a number of Maryland based 
companies--big and small--who advise the Maryland Coordination and 
Analysis Center (MCAC), Maryland's primary fusion center, routinely on 
their information needs. Maryland's Private Sector Council has been 
formally recognized by the MCAC and they meet monthly to discuss 
threat-related issues within Maryland and the National Capital Region. 
While the main conduit in these examples is through the State Fusion 
Centers, both involve support from and frequent interaction with DHS.
    The private sector needs a comprehensive understanding of the 
threats they face in order to develop mitigation strategies, to plan 
for continuity of operations in the event of an attack or disaster, and 
to protect its employees and assets. In addition to understanding 
credible threats, the private sector also needs to be aware of threats 
that lack credibility. I&A helps to add context to raw intelligence 
reporting to help the private sector better understand which threats 
are real and which ones don't necessarily require a response. This 
helps the private sector better manage its resources.

Write to Release--But Protect Privacy
    DHS is participating in many federal efforts to further improve 
information sharing with the private sector. At the national level--DHS 
in conjunction with DOJ and the DNI, is creating the Interagency Threat 
Assessment and Coordination Group (ITACG). The ITACG is being 
established in response to the President's Guidelines for the creation 
and establishment of the Information Sharing Environment. The group 
will be part of the National Counterterrorism Center (NCTC) and will 
enable the development of intelligence reports on terrorist threats 
threat and related issues that represent a federally coordinated 
perspective and are tailored to meet the needs of state, local, and 
tribal governments. The ITAGC will be staffed by DHS and FBI personnel 
and will include representation from state and local entities. The 
coordination of counterterrorism information within NCTC ensures that 
products released from the Federal government will be of one voice and 
without delay. By including State and local partners as members of the 
ITAGC, the language appearing in federally disseminated products can be 
more focused or tailored in areas that are of greater interest and in a 
form that is most useful non-federal partners.
    Similarly, there are many indisputably legitimate reasons for 
protecting sensitive information--even information that is 
unclassified. For example, information which we refer to generically as 
Sensitive but Unclassified (SBU) or Controlled Unclassified Information 
(CUI). Examples of CUI include personal information, information that 
could compromise ongoing law enforcement investigations or endanger 
witnesses, information containing private sector proprietary 
information, and information containing private sector vulnerabilities 
and other security-related information that could be exploited by 
terrorists. Inappropriate disclosure of these types of information 
could cause injury to individuals, business, or government interests. 
We must balance the need to produce actionable intelligence, while 
protecting the liberties and rights of both individuals and businesses.
    DHS understands the importance of protecting private sector 
proprietary information. We have created handling controls to 
facilitate information sharing in a protected manner. Within DHS, there 
are three such information-protection regimes--``Protected Critical 
Infrastructure Information (PCII),'' ``Sensitive Security Information 
(SSI),'' and the newly established ``Chemical Vulnerability Information 
(CVI).''Congress mandated these categories of information be protected 
and DHS has promulgated regulations implementing these regimes. Each 
was specifically created to foster private sector confidence to 
increase their willingness to share with the federal government crucial 
homeland security-related information. To date, PCII and SSI have been 
successful in this regard and have been well-received by the private 
sector. Moreover, these designations are ready examples of how robust 
control of information can actually promote appropriate sharing.
    Additionally, DHS is working with the Program Manager of the 
Information Sharing Environment (PM-ISE) and key information sharing 
stakeholders on the SBU Coordinating Committee to implement the 
President's direction in Presidential Guideline 3, which, among other 
things, directs departments and agencies to provide recommendations to 
standardize sensitive but unclassified information handling and marking 
procedures so that federal agencies can more efficiently and 
effectively share SBU information with its many partners.

Conclusion
    I appreciate the opportunity to share with you our efforts of 
sharing intelligence with the private sector. DHS recognizes the 
private sector not only as a critical customer, but a vital partner in 
protecting the homeland. I&A is dedicated to strengthening the 
information flow with our infrastructure threat analysis and the 
extensive distribution of theses products. DHS believes the private 
sector is an important part of our nation's intelligence cycle and 
actively engages them to help us understand real time requirements. We 
are building excellent private sector relationships through our State 
and local Fusion Centers. DHS is actively and collaboratively working 
with our Federal partners including DNI, FBI and others to ensure that 
the private sector can obtain the best available intelligence in a 
timely manner. We are dedicated to this important relationship and will 
continue to work to find new ways of strengthening it in support of 
homeland security.

    Ms. Harman. Ms. Smislova, you are now recognized to 
summarize your statement in 5 minutes.

       STATEMENT OF MELISSA SMISLOVA, DIRECTOR, HOMELAND 
  INFRASTRUCTURE THREAT & RISK ANALYSIS CENTER, DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. Smislova. Thank you, ma'am. Good morning, Chairwoman 
Harman, Ranking Member Reichert and other members of this 
subcommittee.
    I am very happy to have this opportunity to talk with you 
about the progress that the Department has made and, in 
particular, HITRAC has made in sharing information with the 
private sector.
    I did, in fact, testify before this same subcommittee in 
November 2005. At that time, HITRAC, the Homeland 
Infrastructure Threat and Risk Analysis Structure, was only 8 
months old, and so much of my testimony discussed what we had 
hoped to do, what our plans were, the initial outreach we had 
made to the private sector.
    Since November 2005, we have produced over 171 products 
that were aimed specifically for the private sector. In 
addition, we have conducted hundreds of threat briefings to 
different members of the private sector.
    Having said that, we do know that there is much that 
remains to be done; and we have learned quite a bit about our 
customer, we have learned much about what works and we have 
learned some about what doesn't work.
    First, though, I wanted to give you a brief update on where 
HITRAC is. Again, when I testified in November 2005, there were 
different changes in the Department of Homeland Security, and 
we have had an exciting several years.
    I am the Director of HITRAC, and I am an intelligence 
professional. I work for Mary Connell and Charlie Allen. My 
deputy, Brandon Wales, did brief you Tuesday evening on the 
Tier 1-Tier 2 program, and he is an infrastructure protection 
employee. We are a joint program office that is staffed by 
intelligence professionals, such as myself, and then 
nonintelligence professionals that have more insight into 
infrastructure requirements--security, as well as what the 
infrastructure looks like and what they may need to make 
informed decisions.
    I also am the Director of the Critical Infrastructure 
Threat Analysis Division. I only bring this up to underscore 
that intelligence information produced by the Department of 
Homeland Security all does go through the appropriate 
intelligence chain of command. So all of the intelligence 
information that HITRAC does send out is approved by Charlie 
Allen so as to ensure that the intelligence is valid and 
vetted.
    I wanted to talk first, briefly, about the kinds of 
products that we have learned work with the private sector. We 
started with a strategic sector assessment, and those are the 
products I discussed in my November 2005 testimony. They were 
intended to be baselines: What does the terrorist information 
say about their interest in attacking specific sectors, so that 
we would bring the private sector up to date on all the 
specific information that we had.
    In addition, we attempted to provide a portrait of this 
adversary to say what we believe the attack methods might be 
and what goals he might want to achieve, trying to provide the 
private sector with a better sense of whether or not they 
should protect against one specific attack over another.
    I am not sure who benefited more from the strategic sector 
assessments, us in dealing with the private sector and learning 
more about the United States railroad system or the oil and gas 
industry or the private sector. But we did accomplish that 
mission, and we did provide sector assessments for all of the 
critical infrastructure sectors as defined in HSPD-7.
    Our other products that have, I think, proven just as 
useful--and maybe in the future, even more--include 
infrastructure intelligence notes. They summarize events 
overseas, such as the chlorine-boosted VBIEDs; they discuss 
other tactics and other techniques that we are gleaning from 
terrorist activities overseas; and we update the private sector 
on items of interest, such as the London attempted bombing.
    We also help Mr. Allen with the CINT notes that go out and 
provide the private sector with specific immediate information 
about activities.
    In addition, we provide a great deal of threat briefings 
and outreach to the private sector. This proves to be one of 
our larger challenges. As you mentioned, Chairman Harman, 85 
percent of the infrastructure is privately owned; and this is a 
large country, so that part has proven to be very, very 
challenging. People like to have a personal briefing, and we do 
that in conjunction with Mr. Caverly's infrastructure 
protection plan partnership model that has assisted us greatly.
    So, in closing, I think some of our challenges include 
educating the private sector on what we can and can't provide. 
They also include the outreach, trying to get everyone included 
in our outreach, as opposed to some people; and that part 
remains a challenge. Dissemination of our products is also a 
problem, again, given the size of the audience.
    But I am happy to report we have made significant progress, 
and I look forward to briefing you on successes in the future. 
Thank you.
    Ms. Harman. Thank you very much.
    [The statement of Ms. Smislova follows:]

                 Prepared Statement of Melissa Smislova

Introduction
    Good morning, Chairwoman Harman, Ranking member Reichert, and 
distinguished Members of this Subcommittee. I welcome the opportunity 
to speak again to this subcommittee on the progress of the Department 
of Homeland Security in sharing intelligence information with the 
private sector. I will also take this time to discuss the lessons we 
have learned during our outreach and inform you of our plans to improve 
information sharing.
    I manage both the Department's joint program office for assessing 
the risk to the critical infrastructure and key resources of the United 
States, known as the Homeland Infrastructure Threat and Risk Analysis 
Center (HITRAC), as well as the DHS Office of Intelligence and Analysis 
(I&A), Critical Infrastructure Threat Analysis Division (CITA), which 
supports HITRAC as its discrete, embedded intelligence component. 
Through my involvement with HITRAC and CITA, I am able to oversee the 
collocation of DHS intelligence analysts with the Department's 
infrastructure protection experts responsible for performing sector-
specific risk assessments. The virtue of maintaining CITA's existence 
as a separate albeit embedded threat unit within HITRAC ensures that 
all intelligence production remains subject to the oversight and 
policies of the Department's Assistant Secretary for Intelligence and 
Analysis and Chief Intelligence Officer.

Production
    Since I last testified to this subcommittee in November 2005 
significant progress has been made in developing and disseminating 
products and briefings tailored specifically for the private sector 
audience. In that time, HITRAC/CITA has produced over 171 separate 
products for critical infrastructure protection analysts in the private 
sector, State and local homeland security agencies, and the law 
enforcement community. Of these, 40 were assessments jointly written 
and published with the Counter Terrorism Division of the Federal Bureau 
of Investigation.
    We have also systematically and routinely conducted classified and 
unclassified intelligence briefings for the private sector, largely 
through the National Infrastructure Protection Plan Partnership Model, 
but also through our discrete relationships with industry associations, 
our attendance at conferences, and outreach directly to individual 
private sector entities.
    While I am proud of our accomplishments and I believe the work done 
so far creates a good baseline, I do know that much work remains. As 
our relationship grows with the private sector and with the critical 
infrastructure community in State and local governments, we are 
increasingly learning about new requirements. The information needs of 
the private sector and of the States are diverse, and we are challenged 
to create products and briefings to meet them.
    One of the first lessons we learned was that private sector and the 
critical infrastructure protection officials in State and local law 
enforcement community's work closely together yet sometimes have 
different information requirements. We began our HITRAC/CITA production 
efforts with assessments aimed at addressing known and potential 
threats to sectors--or systems--of like critical infrastructure. While 
we found that those products were well received by some our private 
sector customers, States were more interested in regionally focused 
analyses. We have responded by expanding our product lines and outreach 
efforts to address, in addition to core sector specific concerns, the 
broader, cross-sector regional issues.

Intelligence Information Designed for the Private Sector
    We produce classified assessments and do regularly give classified 
briefings to members of the private sector. The Department of Homeland 
Security and FBI have sponsored many of our customers for clearances to 
receive classified information. We also disseminate these assessments 
at various classification levels, modified, of course, to adhere to all 
applicable classification rules and other requirements for protecting 
sensitive information, but with the goal of reaching as many customers 
as possible.
    However, our interaction with the private sector has underscored 
their interest in the details of intelligence reports vice source 
information. Much of what makes a report classified is its reference to 
collection. Because of that focus we have been very successful in 
working with the intelligence community to ensure the downgrading of 
key information on terrorist tactics, techniques and procedures. Many 
of our products use information we have first worked to downgrade from 
classified to unclassified.
    Another lesson learned was that many within the critical 
infrastructure information sharing community were interested in 
reporting about numerous sectors. Thus, we expanded dissemination.
    Our product lines now respond to what we have gathered about 
private sector needs and continue to evolve with private sector 
involvement. We continually reach out to a broad spectrum of private 
sector representatives to refine the scope of our assessments, and have 
come to learn that private sector information requirements are not only 
numerous, but have become more complex as our private sector partners 
have become more knowledgeable about intelligence and terrorism 
generally. Thus, where in the beginning many of our products summarized 
merely what was known about existing terrorists' interest in certain 
types of infrastructure as potential targets, our product lines now 
reflect our customers expanded interests in more detailed analysis of 
terrorist tradecraft, including especially surveillance techniques and 
attack methods.
    Many of our products have benefited from the insight and, in many 
cases, direct input of members of the private sector as those products 
are being developed. In addition, this direct interaction with the 
private sector has also assisted the Department in clarifying, or 
putting into better context, vague or incomplete threat reporting.
    Some of our current product lines include:
        <bullet> Quarterly and Annual Suspicious Activity Assessment 
        (SAA): These assessments provide strategic, national-level 
        analysis of suspicious incidents reported to DHS. They use 
        information provided by the private sector and are an attempt 
        to provide industry with trend and pattern analysis of 
        incidents noted at their facilities. This represents a genuine 
        and valued partnership between the government and private 
        industry.
        With the direct involvement and knowledgeable support of the 
        private sector, we have been able to establish a baseline of 
        ``suspicious activity'' reflected in these assessments. For 
        example, when we recently received reports that electrical 
        power towers were possibly being sabotaged, private sector 
        electrical industry professional familiar with that particular 
        region suggested to us that the activity was more likely 
        illegal, albeit non terrorist related, tampering often seen in 
        that area of the country during hunting season--i.e., elements 
        of the power towers are used illegally to create deer blinds. 
        Similarly, we believe we have been able to better educate the 
        private sector about terrorist surveillance techniques and 
        alert them when suspicious activity might indicate pre-
        operational terrorist activity.
        <bullet> CINT Notes--In conjunction with notes regularly sent 
        out by the Chief Intelligence Officer, Charlie Allen, 
        concerning current threat activities or information, we 
        communicate directly with all stake-holders, including the 
        private sector, to inform them of what we know about incidents 
        as they unfold. CINT notes and follow up coordination with 
        relevant partners concerning the recent attempted attacks in 
        London and Glasgow is a good example of this means for sharing 
        pertinent information.
        Mr. Allen also makes direct phone calls to US companies if they 
        are specifically mentioned in intelligence reporting.
        <bullet> Infrastructure Intelligence Note (IIN)--Generally a 
        short product that provides the infrastructure owners and 
        operators and State and local partners with a timely 
        perspective on events, activities, or information of importance 
        to support security planning. These products differ from the 
        CINT notes in that they entail more research and time to craft. 
        Some Infrastructure Intelligence Notes are generated directly 
        by calls from private industry based upon specific sector 
        questions or concerns. We also use the Infrastructure 
        Intelligence Note to discuss lessons learned from terrorists' 
        attacks overseas. These assessments are provided to enhance our 
        critical infrastructure protection community's understanding of 
        evolving terrorist tactics, techniques, and procedures.
        <bullet> Joint Homeland Security Assessment--Products written 
        with the Counter Terrorism Division of the Federal Bureau of 
        Investigation. These assessments communicate intelligence 
        information that affects the security of U.S. citizens or 
        infrastructure. Provides information on training, tactics, or 
        terrorist strategies, and analyzes incident trends and 
        patterns. This product also may recommend protective measures. 
        During the last two years we have built a valued and productive 
        relationship with our colleagues at the FBI. This partnership 
        not only produced more comprehensive assessments, but ensures 
        that the government speaks with one voice to our customers. * 
        Strategic Sector Assessments--These were our first unique 
        HITRAC products and were intended to provide a baseline 
        analysis of the threats and risks to the entire critical 
        infrastructure. These products are written at multiple 
        classification levels, detail our analysis of the intentions 
        and capabilities of known terrorists, and integrate relevant 
        threat information. Some of the sector-specific assessments 
        include discussion of the unique vulnerabilities and 
        consequences unique to that sector.
        <bullet> State and Regional Threat Assessments--As I mentioned, 
        one of our lessons learned is that elements of the critical 
        infrastructure community are interested in regionally focused 
        assessments. This is an area of production we are working on 
        with the support of private sector and State partners. While we 
        have created several regional assessments, our efforts are in 
        the beginning stages.

Lessons Learned and Future Opportunities
    We continue to modify our processes and products based on customer 
feedback and other lessons learned. We believe these modifications have 
made us more responsive to our stakeholders and have enabled us to 
create better products.

Integration with State and Local governments.
    While our initial efforts were focused on the CI/KR owners and 
operators, we have dramatically increased our work for and with State 
and local authorities who have significant responsibilities for 
security, risk mitigation and incident response around the nation CI/
KR.
    We now have an aggressive outreach plan that includes State and 
local as well as private sector critical partners to identify 
information needs and to tailor analyses and products to meet these 
requirements. As part of this outreach plan, we are regularly meeting 
with Homeland Security Advisors and their staffs to integrate State 
information and their analysis into the creation of state critical 
infrastructure threat assessments. By doing this we hope to gain a more 
comprehensive appreciation for the threats in the states.
    Specific Outreach initiatives. We initiated and continue to 
participate in weekly conference calls with multiple critical 
infrastructure sectors as well as an analytic exchange between DHS 
intelligence analysts and State and Local Fusion Centers.

Conclusion
    In conclusion, I believe partnering intelligence professionals with 
sector experts and security personnel has proven successful for 
developing better threat assessments. I believe we have made 
significant progress developing product lines and briefings that 
provide tailored intelligence information to the private sector, States 
and law enforcement communities.
    We are excited about improving our analytic understandings of the 
various threats to critical infrastructure. We understand that working 
in partnership with the private sector, States, and local governments 
is the way to achieve that improvement. Our goals for the future 
include enhancing our regionally focused assessments and better 
integrating vulnerability and consequence data into our analysis.
    Thank you.

    Ms. Harman. Now, Mr. Caverly, you are recognized for 5 
minutes.

   STATEMENT OF R. JAMES CAVERLY, DIRECTOR, PARTNERSHIPS AND 
  OUTREACH DIVISION, OFFICE OF INFRASTRUCTURE PROTECTION, DHS

    Mr. Caverly. Thank you, Madame Chairman, Ranking Member 
Reichert and members of the subcommittee. It is a pleasure to 
be here today to talk about the framework and the structure 
that we have put in place to be able to share information with 
the private sector and to allow them to share information with 
us.
    Building trust in an effective working relationship is 
critical to being able to share that information. It is not 
only about being able to get the information out there, but the 
ability to have the trust that is necessary.
    I believe the subcommittee is well aware, in the National 
Infrastructure Protection Plan we have defined a very good 
structure for sector partnership and also for information 
sharing. And we have taken that forward from the development 
process and implemented as fully as I believe we can at this 
stage.
    Sharing information with 17 different sectors is difficult 
because each of the sectors is different, and we have to tailor 
the structure of the mechanisms and, ultimately, the product to 
each sector, because talking to a nuclear power plant is 
different than talking to a railroad.
    We know information sharing has to be two ways. We know 
that between government and the private sector we need to share 
information on trends of threat, criticality, the consequences 
of things, the vulnerabilities based on those emerging threats, 
protection priorities and best practices. That sharing back and 
forth is what enhances both what the government needs to do to 
protect critical infrastructure and what the owners and 
operators need to do.
    That information has to inform things at three levels:
    We have to be able to give them strategic information that 
informs their investments in their planning and structures with 
the long lead times;
    We have to be able to give them situational assessments 
that let them know what is going on right now; and
    The third piece is, we have to be able to provide them the 
tactical level of information that says to a security director, 
based on what you told me, I either do or don't need to do 
something differently.
    We have some challenges in that. We have the challenges of 
classification information, we have the challenges of ways to 
communicate to get directly to those owners and operators. We 
think we have put some of those in place.
    As I mentioned, our sector partnership model with a sector 
coordinating council gives us the ability to shape our products 
and structures in a way that is relevant to each of the 
infrastructure sectors. We also know, through our CIPAC 
activity, our Critical Infrastructure Partnership Advisory 
Council, using the authorities Congress gave us in 871, we have 
been able to create an environment in which we can share the 
sensitive information without the risk of its being disclosed 
inadvertently to places it shouldn't go. I believe everybody 
agrees that vulnerability data is not well served by being in 
the public domain,
    Chairwoman, as you mentioned, the National Infrastructure 
Advisory Committee did a very good study on information 
sharing. A range of those recommendations have been 
implemented. I understand there was testimony yesterday to 
another subcommittee from a member of the advisory committee of 
NIAC who, in fact, complimented the implementation of the 
recommendation.
    We set in place a couple of things that are quite important 
to understand. We put the National Infrastructure Coordinating 
Center in, which is a 7-by-24 operation, a hub for our 
interaction and communications with the private sector. It is 
part of the National Operations Center. Its job is to provide 
the always-there connectivity to the private sector. All of our 
information goes out through it, and it provides them the 
ability to reach in and connect with us any time from any 
place.
    You mentioned the Homeland Security Information Critical 
Sector. It is a critical system for us because we believe that 
there has to be the capability of a common platform that serves 
not only the individual sectors, but also the cross sectors. It 
is equally important; I think it is the government's function 
to provide that platform. The reason is, if we ask the private 
sector to provide it, there would be barriers to participation 
from those companies and small entities that don't have the 
resources to participate. So we have gone down the path of 
building a structured mechanism that will serve all the members 
of the sector and have barrier-free access.
    You mentioned the Protected Critical Infrastructure 
Information Program. As you are aware, this past spring we 
issued the final regulations. We now have over 5,000 different 
elements of information that have submitted under the PCII 
program. We believe that as the private sector gains the 
government's ability to protect that information and not have 
it disclosed inadvertently, we will have more participation in 
the program.
    We have to be able to convince the private sector that, A, 
we need the information and tell them why and what will happen 
with it and then make sure that we carry through on that. So we 
think that is a program that will grow totally on trust.
    The last thing I would like to mention briefly is, we have 
embarked on a program from the beginning of providing 
clearances to members of the private sector. We are expanding 
that. We have over 1,000 members now that have the clearance, 
but that is essential to being able to share sensitive 
information with the people who have to be able to do the 
decision-making, so that is an important part of our 
activities.
    The last thing, there is a major initiative under the 
Intelligence Reorganization Act for the information sharing 
environment, of which we are a major component of that. And, in 
fact, in dealing with the sharing of information in private 
sector out of the DNI's office and the program manager's 
office, they have taken our structure in the NICC for the 
Sector Coordinating Councils and the private sector 
relationship to be the basis on which they are exploring that 
issue.
    Thank you.
    [The statement of Mr. Caverly follows:]

                  Prepared Statement R. James Caverly

    Thank you Chairwoman Harman, Ranking Member Reichert, and Members 
of the Subcommittee. It is a pleasure to appear before you today to 
discuss the Department of Homeland Security's (DHS's) perspective on 
private-sector information sharing, specifically with the nation's 
Critical Infrastructure and Key Resources (CI/KR) stakeholders.
    The challenge of protecting the nation's CI/KR is daunting. Human, 
physical, and cyber assets, systems, networks, and functions are spread 
across 17 critical infrastructure and key resource sectors, diverse in 
their composition, cultures, regulatory regimes, and operational 
processes. In aggregate, the CI/KR sectors represent almost 50 percent 
of the nation's Gross Domestic Product, with a majority of assets, 
systems, and networks owned and operated by the private sector. The 
protection of the nation's CI/KR represents a shared responsibility by 
owners, operators, and all levels of government through complementary 
commitment of resources, knowledge, and capabilities.
    Building trust and effective working relationships with the private 
sector to facilitate information sharing is essential for effective CI/
KR protection. The Sector Partnership model and other information-
sharing mechanisms and tools described in the National Infrastructure 
Protection Plan (NIPP) provide the structure and processes within which 
public- and private-sector security partners share vital information to 
mitigate the nation's CI/KR risks.

The Challenge of Information Sharing
    The NIPP defines the nation's CI/KR as ``those systems and assets, 
whether physical or virtual, so vital to the United States that the 
incapacity or destruction of such systems and assets would have a 
debilitating impact on security, national economic security, national 
public health or safety, or any combination of those matters.''
    The wide scope of this definition of CI/KR underscores the wide 
variety in the 17 sectors' approaches to information sharing. Sectors 
differ in business characteristics and their sensitivity to risk 
taking; the assets, systems, networks, and functions involved; their 
previous experience in working with government; and the specific risk-
management characteristics of the sector.
    One factor that all CI/KR sectors have in common, however, is that 
in their public-private partnerships necessary for CI/KR protection, 
the desired outcome is a safer, more secure, and more resilient sector. 
Information sharing is effective when it clearly and directly supports 
this outcome.
    Because information sharing is valued by both the CI/KR owners and 
operators and by the government, a collaborative approach enables 
public and private security partners to determine how best to apply 
their respective resources and capabilities to the entire spectrum of 
risk-management activities: prevention/?deterrence; protective 
programs; preparedness; response and crisis management; and, recovery, 
restoration, and reconstitution.

Information Sharing and CI/KR Decision Making
    Information sharing by both public- and private-sector security 
partners on threat trends, criticality (consequences), possible 
vulnerabilities based on emerging threats, protective priorities, best 
practices, and strategic solutions enables CI/KR risk management and 
must support several levels of decision making:
        (1) Strategic planning and investments in preparedness and 
        protective programs by both CI/KR owners and operators and 
        government at all levels.
        (2) Situational awareness and decision-making coordination 
        during the execution of planned preparatory actions, protective 
        measures, and response/recovery efforts.
        (3) Operational/tactical decision making through the exchange 
        of incident or suspicious activities information and the timely 
        and accurate transmission of alerts and threats to CI/KR owners 
        and operators to catalyze protective actions.
    In the complex, dynamic environment that is characteristic of CI/
KR-protection decision making, effective information sharing must be 
centered on clearly defined ``knowledge networks'' of public- and 
private-sector professionals and senior managers with the ability and 
authority to make decisions and act on critical, focused information. 
The bottom line for CI/KR information sharing is to get the right 
information to the right people who can make decisions and take the 
correct actions to protect the CI/KR and to mitigate consequences.

The Sector Partnership
    The Sector Partnership model described in the NIPP is the 
foundation for effective information sharing with the owners and 
operators of facilities and systems in the CI/KR sectors. The scope of 
activities for CI/KR protection requires valid, two-way information 
sharing, which requires the trust that can only come with the 
implementation of a real partnership between the sectors and 
government. The Sector Partnership provides a national forum for 
requirements identification, planning and policy coordination, and the 
mutual path forward for implementation and operations for effective 
information sharing among the CI/KR owners and operators, federal 
agencies, and state, local, and tribal government.
    The components of the Sector Partnership provide the policy, 
planning, coordination, and implementation of CI/KR protection programs 
and its supporting information sharing environment. These components 
include the following.
    Sector Coordinating Councils (SCCs) serve as the government's 
principal point of entry into each sector to address the entire range 
of CI/KR protection and risk-management issues. SCCs are self-
organized, self-governing entities consisting of a broad base of sector 
infrastructure owner-operators and their representatives from sector 
trade associations. Often chaired by a sector owner-operator, SCCs 
serve as ``honest brokers,'' facilitating sector-wide harmonization and 
coordination of the sector's CI/KR protection policy development, 
planning, program implementation, and monitoring activities. Each SCC 
identifies and supports the information-sharing mechanisms, needs, and 
capabilities most appropriate for its sector.
    Government Coordinating Councils (GCCs) serve as the governmental 
counterparts to the SCCs. Each GCC is chaired by the Sector-Specific 
Agency (SSA) for the sector, as designated by Homeland Security 
Presidential Directive 7 (HSPD-7) and the NIPP, and includes 
representatives from DHS, the SSA, and other appropriate supporting 
government agencies. GCCs are non-regulatory in nature, are intended to 
maximize interagency coordination and information sharing at the 
operating level, and are tasked to institutionalize a true partnership 
with DHS and other government partners. GCCs provide coordinated 
communication, issue-development services, and initiative 
implementation among government partners. Each GCC engages and supports 
its corresponding SCC's efforts to plan, implement, and execute the 
necessary sector-wide measures for CI/KR protection, including 
information sharing within the government and with the sector.
    The Partnership for Critical Infrastructure Security (PCIS) serves 
as the cross-sector council for the CI/KR owners and operators. It 
coordinates cross-sector initiatives in support of public and private 
efforts to promote assured and reliable provision of critical 
infrastructure services in the face of emerging risks to economic and 
national security. PCIS membership consists of one or more members and 
their alternates from each of the SCCs.
    The Federal Senior Leadership Council (FSLC) is an interagency 
group that consists of senior representation from each SSA. The Council 
addresses common issues, dependencies, and impacts that cut across the 
sectors. The formation of the FSLC enhances communications and 
coordination among federal departments and agencies with a role in 
implementing the NIPP and HSPD-7.
    The State Local Tribal Territorial Government Coordinating Council 
(SLTTGCC) serves as a forum to coordinate and communicate among state, 
local, and tribal homeland security advisors or their equivalents, and 
to ensure that they are fully integrated as active participants in 
national CI/KR protection planning and implementation activities. With 
the implementation of the SLTTGCC, state, local, and tribal homeland 
security leadership can engage with the national security leadership of 
the CI/KR owners and operators and the federal government to identify 
and implement an effective framework for cooperation and coordination. 
The result can then be tailored for regional differences that will 
integrate the capabilities of national CI/KR protection programs with 
those implemented at the regional, state, or local level.
    The Government Cross-Sector Council serves to coordinate government 
activity across sectors. It is made up of two sub-councils: the FSLC 
and the SLTTGCC.
    Mechanisms for Policy and Strategy Coordination
    Advisory committees are a way of ensuring public and expert 
involvement and advice in federal decision-making. The Critical 
Infrastructure Partnership Advisory Council and the National 
Infrastructure Advisory Council allow government and owner-operators to 
undertake collaboration and information sharing to support policy/
strategy, planning, and requirements identification.
    The Critical Infrastructure Partnership Advisory Council (CIPAC) 
membership consists of the CI/KR owners and operator members of all 
SCCs and their corresponding GCC organizations. It employs a special 
exemption (pursuant to Section 871 of the Homeland Security Act) to the 
Federal Advisory Committee Act. This exemption protects SCC and GCC 
discussions containing sensitive CI/KR information from public 
disclosure, thereby facilitating regular, ongoing, and multi-
directional communications and coordination.
    The National Infrastructure Advisory Council (NIAC) is the 
President's principal advisory panel on critical infrastructure 
protection issues spanning all sectors. It comprises up to 30 CEO-level 
leaders from private industry and state and local government. The NIAC 
is charged with improving the cooperation and partnership between the 
public and private sectors in securing critical infrastructure and 
advising on policies and strategies that range from information sharing 
to roles and responsibilities between public and private sectors. In 
October 2005, the NIAC issued its recommendations for implementing the 
Sector Partnership, many of which were subsequently adopted by DHS. In 
addition, in July 2006, the NIAC issued recommendations regarding the 
Intelligence Community's coordination with CI/KR owners and operators. 
As a result of the collaboration between the Director of National 
Intelligence, the Program Manager of the Information Sharing 
Environment, the DHS Office of Intelligence and Analysis (OIA), and 
other members of the Intelligence Community, there have been 
significant advances toward meeting the intent of those 
recommendations.

Support Mechanisms
    A series of operational mechanisms exists to support information 
sharing with the CI/KR sectors. These mechanisms consist of the 
organizations, processes, and personnel that support the exchange of 
information among DHS, other Federal agencies, State, local and tribal 
governments, and the CI/KR sectors. Efforts can be categorized into 
four broad areas

1. Content Development
    Homeland Infrastructure Threat and Risk Analysis Center (HITRAC) is 
a partnership between OIA and the Office of Infrastructure Protection 
(OIP) within DHS. It provides tailored risk assessment products for CI/
KR sectors, fusing consequence and vulnerability information from 
infrastructure protection communities collected through OIP with threat 
information from intelligence and law enforcement communities. It has 
access to a network of sector experts through the SSAs and SSCs, to 
specialists, and to field-deployed Protective Security Advisors to 
obtain CI/KR Sector expertise. Products include: (1) strategic risk 
assessments for each CI/KR sector; (2) threat handbooks; (3) 
information bulletins; and (4) analytic reports on suspicious-activity 
reports to sectors. Initial experience and feedback from the sectors 
using HITRAC products strongly indicate that it is a mechanism that 
delivers useful, actionable information.
    Office of Infrastructure Protection Division, as a part of their 
CI/KR protection mission responsibility, this office develops 
information products on vulnerability, consequences, interdependencies, 
and protective strategies, as well as recommended effective practices. 
This information, combined with threat analysis provided through the 
Office of Intelligence and Analysis, results in information used by the 
CI/KR sectors.
    The Sector Specific Agencies (SSAs) as mentioned above, are the 
Federal departments and/or agencies identified in HSPD-7 as responsible 
for CI/KR protection activities in specified CI/KR sectors. Along with 
other CI/KR relevant functional agencies, they bring expertise, 
authorities, experience, and content in participating as partners 
within the CI/KR information-sharing environment. Particularly in 
hazards risk management beyond terrorism, many SSAs have long 
traditions of working with their CI/KR sector counterparts, as well as 
deep-seated expertise. Consequently, they have information products 
useful to the CI/KR sectors. The SSAs are also fully engaged as 
partners in the development of the Homeland Security Information 
Network sites, which DHS has provided each of the sectors as an 
information-sharing tool.

2. Information Delivery Mechanisms
    The National Infrastructure Coordination Center (NICC) is the 
round-the-clock watch mechanism through which the National Operations 
Center (NOC) maintains situational and operational awareness, 
communications, and coordination with CI/KR partners. It provides a 
centralized process for coordination and delivery of information 
between the government and the CI/KR sectors, particularly the SCCs, 
GCCs, and the sector-based Information Sharing and Analysis Centers 
when they exist for a sector. The NICC serves as a DHS focal point for 
CI/KR suspicious activity and incident and status reporting; receives, 
logs, and tracks requests for information and assistance from the 
owners and operators of the CI/KR; and provides industry partners with 
Web-enabled access (via the Homeland Security Information Network) to 
DHS Situation Reports, bulletins, and other products. The NICC uses the 
Executive Notification System to provide rapid turn-around 
notifications of needed action, such as alerts and warnings.
    The Homeland Security Information Network-Critical Sectors (HSIN-
CS) is the primary technology tool to facilitate the information 
sharing necessary for coordination, planning, mitigation, and response. 
HSIN-CS is an Internet-based platform that enables secure, encrypted, 
Sensitive-But-Unclassified/For-Official-Use-Only-level communications 
between DHS and vetted members of the CI/KR sectors, as well as within 
and across the sectors. DHS fully funds and maintains HSIN-CS, thereby 
removing the obstacles of cost and day-to-day efforts required to 
support systems implementation, operations, and maintenance. DHS 
supports the unique requirements, outreach, and program-support needs 
of the CI/KR users to create robust, sector-specific information-
sharing hubs for each sector. HSIN-CS includes a separate site for each 
CI/KR sector, designed and implemented in collaboration with the 
sector's GCC and SCC to best meet sector-specific needs. It also 
provides a top-level publishing capability to share applicable DHS and 
other information resources with all sectors simultaneously. HSIN-CS 
directly supports the building of trusted, reliable, and valued public-
private sector partnerships, as well as two-way sharing of information.
    Critical Infrastructure Warning Information Network (CWIN) provides 
a survivable network, not susceptible to service disruptions, to 
connect entities essential to restoring the nation's infrastructure 
during incidents of national significance. It connects key operational 
CI/KR sector entities, emergency operations centers of the 50 states, 
the District of Columbia, and the NOC.

3. Relationship Management
    Sector-Specific Agencies (SSAs) As mentioned previously, the SSA's 
have the responsibility of working with each sector to implement the 
NIPP framework and guidance, as tailored to the sector's specific 
characterisitics and risk landscape. They serve as the key point of 
contact between the sector and the federal government to coordinate 
critical infrastructure protection, incident response, and 
infrastructure recovery.
    Sector Specialists develop and sustain relationships at the 
national level with sector stakeholders to build trust and promote 
partnership. The Sector Specialist maintains extensive situational 
awareness of infrastructure issues and priorities. They keep a finger 
on the pulse of sector activities (economic, political, technological, 
and structural) to assess their implications on sector operations and 
security. The Sector Specialists are housed within the Office of 
Infrastructure Protection and HITRAC.
    Protective Security Advisors provide field-deployed support to CI/
KR owners and operators on specialized CI/KR security topics. They 
facilitate, coordinate, and/or perform vulnerability assessments in 
support of CI/KR owners and operators; they also assist with security 
efforts coordinated through state homeland security advisors, as 
requested.

4. Enabling Programs for CI/KR Information Sharing
    The Protected Critical Infrastructure Information (PCII) Program 
provides a structure and processes to ensure that voluntarily submitted 
critical infrastructure information will be exempt from public 
disclosure, will not be used for regulatory purposes, and will be 
properly safeguarded. To implement and manage the program, DHS has 
created the PCII Program Office within the Infrastructure Partnerships 
Division in OIP. The PCII Program Office receives and evaluates 
critical infrastructure information to determine whether it qualifies 
for protection under PCII. The Office also manages a certification 
program for other Federal agencies and States to receive and manage 
PCII-protected information.
    CI/KR Classified Security Clearance Program provides a capability 
whereby the federal government can discuss and share classified 
information--on vulnerability and consequences, as well as threats--
with the owners and operators of the CI/KR. The owners and operators of 
the CI/KR will always have the primary responsibility for managing the 
risks of their own assets, systems, and functions. They also have 
current information on their operational and business processes, the 
usage and application of technology in their CI/KR sector, and what is 
most critical to their operations, including dependencies on other 
sectors and locality to locality variations. The Classified Security 
Clearance program is sponsored, coordinated, and funded by OIP. It is 
implemented through DHS's Office of Security and its policy and 
procedures framework.

    CI/KR-Unique Policy and Legal Framework
    For CI/KR owners and operators, sharing information with government 
at all levels creates a range of risks affecting the viability and 
efficiency of their business operations, including liability risk, 
antitrust risk, and competitive risk.
    The risks associated with liability and competitiveness are the 
primary reasons that infrastructure owners and operators seek ownership 
and control over CI/KR data that they submit to government. They want 
to know who gets the information, what is done with it, and how is it 
protected from inappropriate disclosure. These assurances, to the 
extent possible, are necessary for building trust in government 
institutions and processes that receive and handle voluntarily 
submitted CI/KR information.

The Information-Sharing Environment
    Our information-sharing efforts are part of the broader 
Information-Sharing Environment (ISE) created by the President in 
accordance with the Intelligence Reform and Terrorism Prevention Act of 
2004. The purpose of the ISE is to measurably improve information 
sharing between and among the Federal government, appropriate State, 
local, and tribal officials, and private-sector entities. In 
recognition of the important work under way in this area under the NIPP 
framework, the program manager for ISE, in coordination with the 
Information Sharing Council, has officially designated the CI/KR NIPP 
process (as described above) as the mechanism in which the private 
sector will be incorporated into the ISE. In this role, the NIPP 
Partnership Framework provides guidance for the private sector to 
engage in ISE-related policy, governance, planning, and operational 
coordination, as well as a forum for identifying and satisfying 
information requirements.
    Particularly critical is the coordination of CI/KR information 
sharing at the national level with that at the local level, where most 
decisions are made and actions taken to support CI/KR protection. The 
implementation of the ISE and the formation of the State, Local, and 
Tribal Government Coordinating Council as a key component of the Sector 
Partnership are critical to this necessary coordination. Consequently, 
the integration of the CI/KR information sharing framework into the ISE 
as its private-sector component strengthens the foundation for 
effective coordination.
    In addition, OIP works closely with and supports Assistant 
Secretary Charles Allen and OIA in DHS's efforts to use and integrate 
into State and Local Fusion Centers. The OIP exchanges information with 
the Fusion Centers using existing channels such as the NICC and HITRAC.

Sustainable Information Sharing
    The foundation for sustainability of CI/KR information sharing 
comes from leveraging the structures, processes, and mechanisms for 
responding to natural disasters and accidents. When there is a 
terrorist incident, the tools will already be in place, the training 
will be complete, and the familiarity and experience required to 
efficiently implement defined procedures will already be established.
    The NICC has undertaken a comprehensive effort to identify relevant 
and useful all-hazards information available from agencies within DHS 
to populate CI/KR portals on HSIN-CS. The NICC is the DHS CI/KR hub to 
ensure that DHS-sourced information remains current. Additionally, OIP 
has undertaken a project to generate various operational products for 
CI/KR derived from resources freely available in the public domain. 
These will include specific products requiring open source research and 
analysis, as well as a currently available daily reports.
    The sectors themselves determine appropriate and useful content for 
their sector. Some of the SSAs produce sector-specific, non-terrorism 
related informational products that other sectors find useful for 
situational awareness and management of incidents related to their CI/
KR. Both public and private partners within the sector work with DHS to 
identify the functional and security capabilities to enable the storage 
and management of their information on HSIN-CS, as appropriate.

Measurement of Effective Information Sharing
    The goals for information sharing in the CI/KR environment are 
effective and efficient protection, preparedness, response, and 
mitigation of consequences to incidents that could disrupt the nation's 
CI/KR. The Sector Partnership represents the foundation for these 
activities and the information sharing that supports them. Change is a 
constant: the threat evolves; industries evolve, and the environment 
within which businesses must operate and provide services and products 
to the nation evolves. Information requirements will change 
accordingly. Successful information sharing is measured by the outcomes 
associated with protection, the efficiency and effectiveness of actions 
taken, and the adaptability of the entire structure of the Sector 
Partnership and its supporting information-sharing mechanisms.
    With a clear focus on the desired outcomes of protection, and a 
foundation for systematic engagement and relationships based on trust, 
an information-sharing environment for CI/KR can sustain itself, adapt, 
and protect the nation's CI/KR and its citizens.
    In closing, I would like to assure you that DHS is relentless in 
its work to continue building a strong, positive partnership with the 
private sector in which valuable, actionable information can be shared 
with the right people at the right time to ensure the protection of our 
nation's most valuable CI/KR. Our country deserves nothing less. I 
thank you for your time and appreciate the opportunity to answer any 
questions you may have.

    Ms. Harman. Thank you all. I will now yield 5 minutes to 
myself for an opening round of questions, and all will 
participate on the same basis.
    Mr. Chaparro, I appreciated your opening comment that the 
mission of your department is 24/7 to protect the security of 
Americans. I think that is the mission of the members here, 
too, and I would hope that you see this hearing exercise as a 
collaboration. We want you to do your jobs better, and I hope 
you want us to do our jobs better because this is a hard task.
    I did read the 50-page NIE last week, I thought it was a 
very good work product, but as we all know it doesn't have 
names, addresses and serial numbers. The threat is greater, but 
we don't know where attacks could come. I am one who is quite 
pessimistic about our ability to keep our entire country safe 
from those attacks if those who want to attack us are prepared 
to take their own lives, which they are. So we all have to 
collaborate better, and we certainly have to get information to 
the private sector that is as good as we can field.
    In that connection, let me make two comments. First, a 
thank you to your Secretary, Michael Chertoff for, spending 
last Friday at the Port of Los Angeles and in some other 
meetings in Los Angeles. We were talking about the need to 
resume trade promptly should the port complex of LA in Long 
Beach be attacked, either a terrorist attack or some natural 
disaster. And I think that all of us are learning together that 
what needs to be done in the private sector plays a major role. 
So a public thank-you to Michael Chertoff for spending the time 
in my area.
    Loretta Sanchez, a member of this committee, who chairs our 
Port Subcommittee was also present, as was another member, Dana 
Rohrabacher, who represents the physical port infrastructure. 
At any rate, thank you for that.
    Second comment, as a member of the Intelligence Committee 
for 8 years in the House, I have read a lot of intelligence 
products, and I always used to say that some of the best 
information I got was not from them, but was from watching 
television, these major news channels, CNN and others.
    In that connection, you will hear--I assume you are 
sticking around for the second panel--some testimony from 
Lester Johnson, who is the Manager of Investigations and Crisis 
Management at the SCANA Corporation, a $9 billion Fortune 500 
energy-based holding company. Let me quote from his prepared 
remarks:
    ``I am forced to rely on the open sources of information to 
receive most of the situational awareness information 
available. I have found a television tuned to a cable news 
network provides the most efficient, timely and accurate 
information to my company. Considering the amount of investment 
our country has made toward the sharing of information among 
government agencies and the public sector, I find this 
reprehensible. We are certainly capable of embracing technology 
and conducting ourselves better than that.''
    Now, I take this as a constructive comment, and I would 
like to ask the entire panel to comment on it.
    Mr. Chaparro. I think that he's absolutely right, there are 
a lot of things that we need to do better.
    We do rely on open source information to help inform our 
analysis. The threats that we see, as you pointed out, are 
often nonspecific, and we must continually balance the need 
between putting out information that will help people take 
relevant steps to mitigate threats versus creating a panic 
atmosphere that will cause people to expend resources 
unnecessarily.
    Oftentimes, the reports that we see in the news media, as 
you are well aware, are very, very good and sometimes the facts 
aren't quite all there, and we have to--before the government 
steps in and releases information, we need to try and make sure 
that information is as accurate as possible, while trying to 
maintain the timeliness and relevance.
    Ms. Harman. Thank you.
    Mr. Chaparro. Clearly, we have work to do. Our 
dissemination mechanism is not as efficient as putting 
something out over the airwaves. We sometimes wish they were, 
and do face challenges in that area.
    Ms. Harman. Do the other witnesses have comments, as well, 
briefly?
    Ms. Smislova. Yes, ma'am. We do attempt to contribute to 
the body of information that's available to the private sector, 
to the news media, by providing something that we think is more 
authoritative and more value added.
    A point that I forgot to mention in my opening statement is 
that over the last 2 years HITRAC has done many of our 
products, over 40, with the FBI. Many of those deal with the 
events that the media is covering. We try to get more 
information that is not readily available to the private sector 
from the media.
    Ms. Harman. Thank you.
    Mr. Caverly.
    Mr. Caverly. I don't think we will ever have the agility of 
a cable news network for the very simple reason, they are on 
the scene, we still have to get the reporting in. As I pointed 
out, there are different levels of information, so there is 
that tactical immediate information which we and them are 
learning from what is happening.
    I would argue, the strategic information is something 
different; that is where the analysis fits in. If you think 
back to the early 1990s you were worried about an abandoned car 
sitting in front of your factory. Then you were worried about 
the car that came that came screeching up and somebody ran 
away. You are now worried about somebody driving through your 
gate. Those are all evolutions on the strategic level, and I 
think our analysis is the supporting information that gets out 
to the strategic level, so there is a mix in what you are 
discussing.
    Ms. Harman. Thank you very much. My time has expired, I now 
yield 5 minutes to Mr. Reichert.
    Mr. Reichert. Thank you, Madame Chair.
    And thank you again for being here this morning.
    I understand the complicated process of gathering 
intelligence and looking at leads and figuring out which leads 
are important, which leads should be shared with members of our 
community.
    In a case that I worked back in the 1980s, it took us 19 
years to solve, with 40,000 suspects and 10,000 items of 
evidence; it was a complicated case. And sorting out 
information is tough; and who to share it with is the other 
thing and trying to keep it from the people trying to get it is 
a whole other matter.
    I noticed a couple of times our witnesses, our panel this 
morning, mentioned the information must be relevant, 
actionable, it must be timely; and another way it was phrased 
was situational information, situational assessment, strategic 
information and tactical, actionable information. But then I 
hear that these things are critical.
    But did I misunderstand you when you mentioned--I am sorry, 
I am not going to pronounce your name correctly, ma'am--that 
all information flows through Charlie Allen?
    Ms. Smislova. All intelligence information, if it is 
intelligence. Then we are under the same rules as the rest of 
the Intelligence Community.
    Mr. Reichert. Does that include every classification of 
intelligence that goes through Mr. Allen?
    Ms. Smislova. Most of what we produced is at the FOUO 
level, over 80 percent of our production. Much of that, 
however, is based on classified intelligence information. It 
has been downgraded.
    And that is another key role we believe we are serving for 
the private sector. I have access to all available information 
about this particular terrorist enemy, but I am able to broker 
some of the information to be downgraded to an unclassified 
level, the actual data about specifics, about attack methods, 
et cetera, not sources and methods.
    Mr. Reichert. I just wonder if--that is, when we talk about 
timely information, if we have one person who it is flowing 
through, whether that is a little bit of a choke-point.
    Ms. Smislova. It has improved considerably. We did very 
well with the London timelines.
    Mr. Reichert. Yes, you did. I have had experience with that 
in my previous career.
    There is also mention of a National Coordination Center 
where information flows out. How does that operation work?
    Mr. Caverly. The NICC is a watch and warning center. They 
are a hub. We use them as our operational entity to move 
information out to the private sector, whether it is going to 
sector--lists of participants in the sector given by the sector 
coordinating council, participants in an information and 
sharing analysis center and other people. We have built lists' 
connectivity and expanding that, working with each of the 
councils, to make sure we can get down to the operational 
level.
    We think with the institution of fusion centers, which 
operate at that local level, we will expand that reach 
significantly.
    Mr. Reichert. So as we begin to share and learn what 
information we can share, an important thing, as Mr. Chaparro 
mentioned, was the mitigation strategy and the input of the 
private sector.
    What is your plan to improve that process? And of course, 
Mr. Caverly, you mentioned it was built on trust. I think, all 
three of you, there is a need for this mitigation strategy; 
that is, the key part of this whole thing in sharing the 
information is to mitigate the events.
    What are your future thoughts on how that program would 
come together?
    Mr. Chaparro. Well, the keys have to be multiple. The 
private sector is very diverse and has multiple needs, 
everything from technical, what is happening now, to what do we 
need to do 5, 10 years from now. The relationships must be 
built on trust, and there are a number of governance mechanisms 
through the ISACs, for example, where we are in constant 
exchange with the private sectors.
    But also we are really aggressively reaching out through 
the State and Local Fusion Center Programs because we can do 
that at the local level, which is where the action really takes 
place and where people need to really know that information. By 
putting people forward in fusion centers, we will have the 
ability to establish those trusted relationships that Mr. 
Caverly mentioned as being so important.
    Mr. Caverly. Let me also point out, prior to 9/11 and the 
creation of the Department, that the structure that was being 
used was one in which we take an intelligence product and 
fundamentally throw it over the transom to a group of experts 
in the sector for them to work a second time.
    With standing up HITRAC, with being able to give security 
clearances, we didn't feel we needed a two-step method. We 
bring in those experts from the sector, so we are working 
together to figure out, is it both relevant to their concerns 
and is it communicated in a way that makes sense to them. 
Because as I said, talking to a nuclear power plant operator, I 
am using a very different vernacular than someone in a water 
system.
    So we bring them into HITRAC. As we get more experts, we 
will expand that base, but that is the point of structure of 
what we have put in HITRAC is to be able to do that and do it 
collaboratively.
    Mr. Reichert. Thank you.
    Madame Chair, I have seen a great deal of improvement, and 
I am happy to hear you use the fusion center as your conduit.
    I yield.
    Ms. Harman. The gentleman's time has expired. I now yield 5 
minutes to Mr. Dicks for questioning.
    Mr. Dicks. The National Coordination Center, Information 
Sharing and Analysis Center, Sector Coordinating Council, 
specific sector agencies, the Department's private sector 
office, HITRAC, HISN, FEMA's emergency support function, ESF 
and others. In a word, it is not one-stop shopping.
    Would you agree with that or do you think this has gotten--
I mean, aren't there a lot of different places people go?
    Mr. Caverly. I don't think it is so much a question of 
different places where people go--again, they go to the people 
they know.
    What it really is, is there are different roles played by 
participants in the process and different equities. If I am 
responding to a natural disaster, FEMA is bringing expertise 
that is different from the Intelligence Community if it is not 
a terrorist event.
    The Sector Coordinating Councils for executive bodies, they 
give us senior guidance that allows us to look to see what is 
appropriate for the water sector or the nuclear sector. The 
ISACs provide a framework in which we can communicate with and 
provide the channel for that communication.
    So while it looks confusing, we believe that as we continue 
to work through the model we have put together, each of those 
people has a role to play.
    I recognize there are some processes over time, but again, 
my responding to a strategic terrorist threat is probably very 
different than I will be responding to a catastrophic event or 
something else; and we need those different expertises and 
mechanisms in a coordinated fashion and that is what we're 
working very hard to do.
    Mr. Dicks. How does a private sector company know which 
outlet is the right one to go to not only to obtain information 
about a threat, but also to feed relevant information to the 
Department?
    Mr. Caverly. That is exactly why we established the NICC as 
the one 7/24/364 center that they can plug into. It is our job 
to direct them to the right people. So between the NICC and my 
sector specialists who support them, we facilitate that 
conversation and get them to the right place. It should be our 
job to understand the internal workings of the Department, and 
we should support the private sector when it gets a problem.
    Mr. Dicks. Ms. Smislova, is the focus of HITRAC 
intelligence products more on the operational side, meaning, do 
they tell folks in the private sector what to do or are they 
aimed more at providing situational awareness?
    Ms. Smislova. They are focused primarily on providing the 
private sector with information about the adversaries so that 
is information that can lead them to decisions about what to 
do. We do occasionally offer our assessment of what mitigating 
factors would work, but I would say it is difficult to 
characterize all of our products one way or another.
    We have several different kinds of products, but mostly we 
are in the business of providing the private sector with 
intelligence-derived information about the international 
terrorists and their affiliates, information that the private 
sector does not have ready access to.
    Mr. Dicks. Ms. Harman, the Chair, got into this, but I want 
to go through it again. There is concern in the private sector 
that HITRAC is not providing reports in a timely fashion. What 
are you doing to work on that? I mean, do you talk to the 
private sector about this?
    Ms. Smislova. We do. We do. And then after an event such as 
the attempted bombing in London and Glasgow, we have canvassed 
our private sector customers to ask them to reevaluate what we 
did and how we did it. At that particular event, we changed 
some of our own processes. In working immediately with the 
FBI--we have developed a very close relationship with our 
sister office at the FBI that also analyzes threats to 
infrastructure, so we had developed some better processes.
    We are aware of a request for more timely information. 
Again, we do view our role as being more authoritative, when we 
do say something we try to have more information than is 
available in the media. Although if we don't, then we will just 
report that.
    In addition to----
    Mr. Dicks. You said Charlie Allen is doing better. Did you 
give him a speed reading course or what did you do?
    Ms. Smislova. No. No. Some of that is delegated.
    I want to make sure that people understand HITRAC isn't its 
own little office without allegiance to the regular 
intelligence requirements that all of us in the Intelligence 
Community are supposed to adhere to, so all of our products are 
properly vetted and properly sourced and then go out in a 
proper fashion with the correct classification.
    Mr. Dicks. I am glad to hear that you are cooperating and 
working with the private sector. I find that DHS has some 
difficulty in other areas doing that effectively; and it 
bothers me that there is kind of--I sense a rigidness in the 
agency in terms of being responsive and taking into account 
what the private sector is saying and a lot of our fields talk 
about fingerprinting and the border security issues, things of 
that nature.
    But I think it is very important that you work with your 
customer. I think anybody who does a good job listens to their 
customer.
    Ms. Smislova. Yes.
    Mr. Dicks. Thank you.
    Mr. Caverly. Madame Chairwoman, I just want to underscore 
one thing we have and take very seriously in the Department: 
the duty to warn and the responsibility we are given with 
legislation.
    There are a large number of incidents in which we have 
specific information that affect a specific entity. In that 
case, I believe that the speed at which we get to those people 
is very good. It is not in the public domain; they are very 
focused when you have the name of a specific target or specific 
organization.
    We go out, we use the ability, Mr. Allen is on the phone 
with them very quickly, we can use our PSAs. That is a piece 
that doesn't see the light of day and we are happy that it 
doesn't.
    Mr. Dicks. That is good to hear.
    Ms. Harman. I thank you for that additional comment. A lot 
of the successes of the Intelligence Community are not known 
and that is how it should be. It is a little tough when one's 
perception--the perception of many is that there are only 
failures, those of us know there are also successes. I think 
you have pointed out some areas of real progress.
    I appreciate your testimony, Mr. Caverly, about the 
security clearances. One of the things we want to work on here 
is to change our classification system so that it is simpler 
and so that it is not used as a turf protection system. Things 
should only be classified to protect sources and methods; I 
know you all understand that. We do support protecting sources 
and methods, but we are preparing legislation here, and will 
hopefully introduce it soon, based on a careful hearing record 
that will make that system easier to navigate. Meanwhile, it is 
very important that the private sector have access, as 
appropriate, to classified material.
    I now yield 5 minutes to Mr. Carney for questions, and will 
point out to this panel and to the second panel that I have to 
leave in 5 minutes to go to a markup at another committee, and 
Mr. Carney will assume the Chair.
    Mr. Carney, 5 minutes.
    Mr. Carney. Thank you, Madame Chair.
    Mr. Caverly refers to the one-stop shop. Is that NICC, is 
that how you describe it?
    Mr. Caverly. What I would say, the one-stop shop that is 
the central place you go into. The products--if we are sending 
something out, I send it through there, but if I have to 
connect somebody who has a question about a specific thing to 
that, so it is a central point, that then reaches into the 
Department.
    Mr. Carney. So as a private sector individual or business 
leader, I would go to the NICC for information?
    Mr. Caverly. For issues relative to infrastructure 
protection and those issues, yes.
    Mr. Carney. So in a sense, to use sort of the techie 
vernacular, you are kind of a router, NICC is a router of 
information?
    Mr. Caverly. As I said, I don't believe we should expect 
the private sector to understand the arcaney of the Department.
    Mr. Carney. Thank God, we all struggle with that. I worked 
for DOD myself so I could navigate that.
    One other question I had: How much duplication of effort is 
there? There seems to be a lot of potential--this is for 
everybody, by the way--crossover here. How do we sort that out? 
Is there a snarl that we can do better with?
    Mr. Caverly. There is no doubt there are areas of 
duplicated effort in what we are talking about today, because 
the leadership had the foresight to set up HITRAC where we put 
together both the intelligence function and the capability of 
getting--if you want the expertise of this sector, I think we 
have eliminated the duplication, because they work well 
together and they have the ability out of HITRAC to reach back 
into the deeper parts of the organizations that support them to 
get deeper.
    So the whole point of HITRAC was to ensure that we had the 
coordination, got it to be efficient and eliminate that if you 
want competitive duplication.
    Mr. Carney. Is it working?
    Mr. Caverly. I believe it is working and the products we 
turn out to the private sector are a good indication of that.
    Mr. Carney. Ms. Smislova.
    Ms. Smislova. I also agree that it is working, and for the 
most part, there is no duplication. We are one of the few 
Intelligence Community entities that writes for the private 
sector, and that does mean that our products look different 
than many of our other Intelligence Community colleagues.
    Our customer is much more interested in what the enemy is 
learning--tactics and techniques and procedures--and they are 
not as interested in the sources or methods. Again, that does 
help us facilitate the production of FOUO material, but they 
are very specific in their interests and I think that is very 
useful for us in avoiding its duplication.
    As Mr. Caverly mentioned, I am in charge of the IA part, as 
well as the IP portion of HITRAC, and I ensure that we are not 
doing the same work. We are not large enough to do that. Thank 
you.
    Mr. Chaparro. I don't think Ms. Smislova has the resources 
to duplicate efforts.
    If there is a challenge that we face with HITRAC, as I said 
earlier, the private sector is so diverse, and the types of 
information that are needed, for example, in the nuclear sector 
versus what is needed in the agricultural sector or the finance 
sector really pull in different directions. But the fortunate 
thing about HITRAC is that you are marrying up Intelligence 
Community officers, professionals, along with sector 
specialists who understand the vulnerabilities, who understand 
how the systems work, how they interrelate and how they 
operate. You are marrying together the understanding of the 
threat and what the adversary is trying to do, along with the 
expertise from the critical infrastructure sectors, and 
generating products specifically for the private sector; and 
that is unique, and I think that is what is working.
    Ms. Smislova. I wanted to add, if I may, that I also 
believe it makes us much more efficient than many of my other 
colleagues, because we do have that synergy and it has proven 
to be very effective.
    Mr. Carney. How much of a dialogue is there with the 
private sector? I know you push out information, but how 
receptive are you to information from them?
    Ms. Smislova. We are interacting with different members of 
the private sector daily. Some of the private sector entities 
have organized conference calls which we conduct weekly, for 
example, with the chemical sector. The nuclear industry arrives 
monthly for a classified briefing; we brief the Sector 
Coordinating Councils; whenever we are asked, we send people to 
different private sector conferences to specific companies, so 
I would say daily. In addition, we are talking to the States 
about their critical infrastructure.
    Mr. Caverly. I was in a meeting of the water sector 
coordinating council. We were giving them the classified brief 
earlier this week, and what was pleasant about the brief was a 
discussion about a specific issue in which the analyst talked 
about how she had reached back down to the local level, talking 
both to utility and to law enforcement to pull together and get 
the information appropriately.
    Can we do more of it? Of course we can as we get better and 
get the networks built. I think the foundation is very solid 
and the structure that we have put in place is the structure 
that lets us now amplify that and get to a much broader base.
    Mr. Carney. That is absolutely important, that we have the 
avenues by which local and State officials certainly and the 
private sector can give you assay as well. Your job is to 
provide them assay, and they do the same.
    Mr. Caverly. Well, I think one of the most important things 
is the ability to turn a product out that, in essence, informs 
the private sector, and they understand the information they 
have goes in and they get something back for what they give us, 
they get the analysis.
    That has not been, historically, something government has 
done well. We are working hard to do that, because they devote 
the time to give us something, we owe them. Hey, it means 
something or it doesn't mean something; that is a new track for 
us. They do it very well, but it is also a self-fulfilling 
prophecy, the more that they give us, the more we give them 
back answers; the more we give them back answers the more they 
give us. And we are building that.
    Ms. Harman. I think we will leave the first panel on that 
note.
    Mr. Dicks. Are you sure? You said there was a dialogue 
there that you didn't have enough people to do both.
    Ms. Smislova. No. We are growing, we continue to grow.
    Mr. Dicks. Do you have a lot of positions unfilled?
    Ms. Smislova. No, I do not, but we are continuing to grow 
and our mission continues to expand. All the critical 
infrastructure of the United States is in a State, so in 
addition to talking to the private sector, if we go to a State, 
then we do talk to the State officials as well.
    Ms. Harman. Thank you. And thank you for inviting an 
ongoing dialogue. I hope you can stick around for the testimony 
of the private sector and maybe a conversation with some of the 
private sector witnesses, because the goal here is for all of 
us to do a better job, 24/7, of keeping America safe.
    This panel is excused, and Mr. Carney will take over the 
Chair for the second panel. Thank you.
    Mr. Carney. [Presiding.] We will begin the second panel 
now. I would like to welcome, first of all, Mr. Lester Johnson, 
who serves as the Manager of Investigations and Crisis 
Management at the SCANA Corporation.
    Mr. Johnson leads a staff of professional investigators who 
conduct investigations, internal corporate compliance issues, 
criminal violations against the corporation's property or 
personnel, executive protection, background investigations and 
risk reduction efforts on behalf of the corporation. Mr. 
Johnson is responsible for the development and continual 
assessment of security risk management and reduction plans for 
the critical infrastructure operated by his company.
    Our second witness is Mr. John Meenan. He serves as 
Executive Vice President and COO at the Air Transport 
Association of America, ATA. He is responsible for ATA 
operations, with a particular focus on technical safety, 
security, environmental, economic and legal policy issues 
impacting the airline industry. Mr. Meenan joined the 
association as Assistant General Counsel in 1985 following 9 
years with the U.S. Secret Service.
    Our third witness, Mr. Rich Hovel, is a Senior Aviation 
Homeland Security Advisor to the Boeing Company. Prior to his 
tenure with Boeing, Mr. Hovel served as the Federal Security 
Manager for the FAA, Aviation Security Operations Division at 
the Seattle Takoma International Airport. Mr. Hovel began his 
law enforcement career with the Albuquerque Police Department; 
afterwards he worked for the Idaho State Police as a trooper 
and supervisor and criminal investigator.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    Mr. Carney. I now ask each witness to summarize his 
statement for 5 minutes, beginning with Mr. Johnson.

STATEMENT OF LESTER J. JOHNSON, JR., MANAGER OF INVESTIGATIONS 
            AND CRISIS MANAGEMENT, SCANA CORPORATION

    Mr. Johnson. Thank you, sir. Chairman, it is truly an honor 
and privilege to appear before you, and I appreciate the 
invitation to do so.
    We have for some time been challenged, I think for all of 
us, the people here with me now, the panel prior to me, this is 
a very challenging issue which all of us face.
    Mr. Johnson. And it is a very difficult issue, and I want 
to recognize that the members of the panel before me I think 
spoke very eloquently and the fact that they are making 
progress and that we are very appreciative of their work. We 
understand the difficulties they face. We too face 
difficulties. We are charged with the protection and the 
security surrounding some of the most critical infrastructure 
that this country has, and we too take that very serious as 
well. I know that they are very inept and attuned to what our 
needs and they are working diligently with each of these 
sectors. And as many of them said today that there are very 
many of those and they all have very differing needs and 
requirements. But we still have work to do, no question.
    I think in the area that was brought up by one of the 
committee members earlier, I call it almost portal fatigue. We 
are in a position now that with information being pushed back 
into homeland security as being sent out in a sundry of ways in 
a lot of different portals and it takes a tremendous amount of 
effort and time on our staff's part to go out and I call it 
chase or find this information, versus having made potentially 
a role-based security where that information could come into a 
dashboard that we could go to one place and feed the 
information that we require or any of our other sectors may 
require and go to one place and have that pushed down to us I 
think is something that we all need to focus on and work 
toward. We have done this successfully in other areas within 
our corporation and I know some governments have done this as 
well, so I know the technology exists to do that, and we just 
need to put our heads together and work toward that effort.
    The flow of information and the timeliness is probably the 
area that I have the most heartache with. It is very common 
that when I find information out, it is through open source 
information such as Cable News Network and other entities, and 
then it is very difficult to go back in and to find information 
or a contact person at that point to assure that that 
information being reported is accurate and timely. We are not 
so much as concerned about the analysis of that information as 
we are being aware of an event and being able to take mediation 
steps to secure any of our like infrastructure that may be 
under attack or may be a subject of interest in other areas, 
both domestically and internationally. I don't want to wait 
until we have an issue to respond to it. And my goal is that we 
proactively go out and make that target hardened to the point 
that no one is going to come after it. And it is very important 
from our standpoint that we know about those events quickly and 
accurately so that we can respond in that way and secure that 
information.
    The information sharing of the private sector, we are very 
fortunate in our State. Our State homeland security adviser is 
very attuned to this. Having the experience of working for the 
State law enforcement division for 28 years in my State, I have 
had the opportunity to serve on both sides of this issue, to 
both provide these services to State and local law enforcement 
and private sector and now from the private sector side as 
being involved in forwarding that information back. We have an 
excellent relationship on the State level. I will tell you that 
I think we are one of any other possibly that has a presence in 
our State fusion center representing our corporate and our 
private sector within the State. This is tremendously 
beneficial, and one that I would encourage Homeland Security to 
take that as a role model and to push that out to other States 
because we receive a great deal of benefit from that. We have 
eyes and ears in that fusion center that are getting realtime 
information, but we are still not getting that timely report 
back out from Homeland on some of the analytical information 
that we are looking for when that comes back.
    [The statement of Mr. Johnson follows:]

              Prepared Statement of Lester J. Johnson, Jr.

    Madam Chairwoman Harman, Ranking Member Reichert, and distinguished 
members of the subcommittee, I appreciate the invitation to appear 
before you today, as it is both an honor and a privilege to be here 
today. I would respectfully request that my written testimony be 
submitted into the record. I appear before you today to share some 
insights I believe are critical to the private sector information 
sharing and to highlight those areas in need of improvement and those 
which are on the path to success. The private sector currently has sole 
possession of approximately eighty-five percent of the vital critical 
infrastructure in existence today, upon which all of us depend on 
daily. For a number of years now, we have been focusing on how to build 
trusted relationships and processes to facilitate information sharing; 
overcome barriers to information sharing, clarifying roles and 
responsibilities of the various government and private sector entities 
that are involved in and charged with protecting critical 
infrastructures. In order to protect our nation's critical 
infrastructure and key assets (CI/KA), the full support, cooperation 
and engagement of Government and the private sector partners at all 
levels is required.
    I have the unique opportunity to speak to this issue from both the 
government and private sector due to my previous employment history 
with the South Carolina Law Enforcement Division (SLED) and my current 
employer in the private sector. I had the opportunity to participate in 
the delivery of services with respect to Homeland Security in South 
Carolina as SLED is the designated agency responsible for Homeland 
Security and Chief Robert M. Stewart serves as the State Homeland 
Security Advisor. The importance of trusted relationships between 
Government and private sector in South Carolina has been recognized and 
established on several levels. Private sector representation exists on 
both the regional and state Counter Terrorism Councils and in the all 
source Fusion Center. I will elaborate more on these initiatives later 
in my testimony. Below, I will be identifying areas of both concern and 
success, as it is my intent to be a part of the solution to these 
areas.

Information Flow:
    The flow of information between the Government and private sector 
are interpreted to be a one way investment for the private sector. 
While there is a great effort on the Government's part to solicit 
situational awareness, timely and actionable and proprietary 
information from the privates sector, there still exists a significant 
deficiency on the Government's part to share the information back to 
the private sector. Information provided by the private sector with 
regard to suspicious activity is received by the Government and 
subjected to an analytical process which I am told includes a human and 
technological assessment, often taking weeks or months to complete. 
During this time, the information is not shared among the peers of the 
sector due to the lack of a complete analysis being available. 
Disparately, should the same information be collected by a peer member 
who does not forward it to the Government, there is no link identified 
since the Government chooses to hold the information instead of sharing 
it across the sector. The process I described creates an atmosphere of 
difficulty for the private sector to adequately place a remediation 
plan into effect.
    I made a valiant effort to seek input from my peers in the industry 
who are not present here today before the committee. I have been 
educated on several instances where information was discovered; often 
months after the Government learned it, where no one the industry was 
made aware of an existing threat or vulnerability that could have an 
enormous negative impact on the industry.

Portal Fatigue:
    The industry as a whole has been besieged by the number of 
information sharing portals from the various Government agencies and 
some private as well, in attempt to go and find the information. Each 
portal has a separate vetting process which must be adhered to, a 
separate user name and password, a unique URL, and to some degree each 
contains the same information with regard to its informational value to 
the user. As I am sure you aware, in the private sector, time is 
equated to money. There is no effort among the Government to coordinate 
the efforts among the various agencies to simplify this process in any 
way. Actually, there appears to be competition to see which agency can 
turn out the most portals in a given amount of time. The idea of 
posting the information, particularly information with no or little 
classification, to site for all to come to is at best a backwards 
approach to information sharing. One would consider the Government as 
the provider of information in this scenario, yet the provider creates 
technology requiring the end user to come to the Government instead of 
the Government pushing the information to the end user. A definite 
confusing demonstration of a product chain and certainly one the 
private sector is weary of. Perhaps consideration may be given to using 
the existing technology to develop a ``role based security dashboard'' 
atmosphere. A role based security dashboard would have an individual 
vetted for all the existing Government portals. The Government would 
then feed the information into a dashboard which would be accessed by 
the end user. All the information pushed to the dashboard would be 
available at one location, requiring one user name and password, and 
would provide a timely and accurate assessment of all information and 
could also provide tools for data mining the information based on the 
user instead of the provider.

Private Sector Information Sharing:
    The private sector has found success in utilizing services from 
other private sector organizations that provide situational awareness 
and information on a variety of topics and services. These services, 
while costly to an organization, are very timely and efficient. The 
services allow the sector to choose the type of information they wish 
to receive and allow information to be vetted by the distance from a 
facility or city. I have personal experience with one such organization 
and found the services to be very beneficial. These organizations 
leverage technology in various formats to push this desired information 
out to the end user and have demonstrated an uncanny ability to learn 
of potential threats, delays and risks in record time.
    I am forced to rely on the open sources of information to receive 
most of the situational awareness information available. I have found a 
television tuned to a cable news network provides the most efficient, 
timely and accurate information to my company. Considering the amount 
of investment our country has made toward the sharing of information 
among our Government agencies and the public sector, I find this 
reprehensible. We certainly are capable of embracing technology and 
conducting ourselves better than this. At a minimum, perhaps the 
Government should consider contracting the services of one of companies 
who have perfected this and make the services available to the end 
users who require it. The Southeastern Emergency Response Network is 
another example of a creation of a private sector initiative which 
became necessary due to the failure of a Government effort. Homeland 
Security Information Network--XXX was an original effort to provide a 
means of information sharing between the Government and private sector. 
I was approached on the State's behalf to develop the program in South 
Carolina. I received the organizational chart for the critical 
infrastructure and contacted our local private sector and sought the 
commitment to serve in the leadership capacity for the required vetting 
among the sectors. Once in place, I delivered the chart as requested 
only to find there had been technological setbacks that would delay the 
initiation of the project. Some years later I was finally notified that 
the program would be replaced with anew program which to date has yet 
to be introduced.
    Many of my peers and I have begun a very basic method of 
information sharing among ourselves as a result of not receiving the 
intelligence we desire from our Government sources. We have resorted to 
a telephone tree of sorts to ensure each of us share the information in 
a timely fashion and develop actionable plans for remediation where 
appropriate.

Dam Sector Working Group:
    Several members of our industry were recruited to participate in a 
working group to develop the Homeland Security Information Network--Dam 
Sector (HSIN-DS) and the Asset Identification Database. These efforts 
were met with great enthusiasm by the sector and several individuals 
provided a great amount of resources toward this effort. Unfortunately, 
the Government has not provided the same level of enthusiasm and 
effort. As a result the project has been at a stand still for some 
period of time. Initially, there were technology setbacks which over 
time were able to be corrected. The vetting process presented 
difficulties over which process would be used by both entities. Due to 
difficulties arising from the PCII, private sector representatives are 
skeptical about placing the information into the system. As you can 
see, there are a number of issues outstanding concerning this project, 
which is paramount to the safety of one of our most critical 
infrastructures.

HITRAC:
    The creation of a partnership between the Department of Homeland 
Security's Office of Infrastructure Protection and the Officer of 
Intelligence and Analysis to provide a tailored risk assessment product 
for CI/KR sectors fusing consequence and vulnerability information with 
threat information is an excellent plan of action. We continue to fall 
short on the timely sharing of the information generated from this 
program. We have been told to expect informational bulletins, 
analytical reports and annual reports and to date we have not received 
any. The sectors can only respond to strengthen and protect our 
infrastructure if we receive the information derived from the process 
below. Without the benefit of this, we have relied heavily on our own 
resources and our peers for information. Additionally, the lack of 
communication creates a large void of information flow from the private 
sector to the Government.

Infrastructure Information and Collection Program:
    The Protected Critical Infrastructure Information (PCII) has failed 
to demonstrate the Government has the ability to provide a safe and 
secure atmosphere for descriptive and proprietary information to exist 
in a repository. Efforts to identify and prioritize national and sector 
level CI/KR information have yet to demonstrate to the private sector 
that the information can be maintained in a confidential manner. 
Recently, this was demonstrated to a peer of mine while attending a 
meeting, at which time a document that had been provided under the 
protection of this program was produced by an individual who should not 
have had access to the document. Incidents such as this are many and 
cause the private sector to withhold information which in any way may 
be considered private or proprietary.

South Carolina All Source Fusion Center:
    Among the difficulties we face every day, there are efforts which 
demonstrate the success and progress we have reached at the State and 
local level. The creation of the Fusion center in South Carolina is a 
foundation for the development of a trusted relationship between 
Government and the private sector. I received notification only three 
days ago that the Department of Homeland Security State and Local 
intelligence Community of Interest has cleared the way for private 
sector representatives to be co-located within the State Fusion Center. 
A program such as this will greatly enhance the flow of information 
between Government and the private sector.

South Carolina Information Exchange:
    Homeland Security in South Carolina developed the South Carolina 
Information Exchange (SCIEx) within the State operated all source 
Fusion Center. SCIEx is an excellent example of information sharing in 
a near real time environment. Law Enforcement agencies within the state 
have participated in this project by allowing the information contained 
in incident reports created in an automated environment to be 
replicated to a data warehouse with SLED and allowing for the querying 
of the information contained therein through a secure web browser. The 
sharing of this information is a tremendous resource for both the state 
and the private sector. Information derived from these reports can 
easily be placed into geographical information software and immediately 
demonstrate a potential threat and vulnerability to our facilities 
throughout the state. The technology for accomplishing this feat was 
developed with the assistance of the National Law Enforcement and 
Corrections Technology Center--Southeast, which is funded in part by 
the National Institute of Justice. The software code for this is an 
open source product, making it available to entities free of charge, 
resulting in the State of Tennessee initiating a project to replicate 
the success there as well. I have no reservation recommending this 
technology be used to better facilitate information sharing among the 
private sector. There is a success there waiting to happen without the 
demand of additional tax dollars and development time.

Conclusion:
    In conclusion, I feel that it is imperative for the committee to 
understand the commitment and dedication of the private sector has with 
regard to the sharing of information. We realize there are great 
benefits to be reaped by both the sector and the Government in the 
presence of a trusted partnership. There have been many, too many 
actually, attempts to develop and implement a program where this type 
of exchange can be conducted and the information shared can be relayed 
and maintain the integrity necessary for the public sector. I and many 
of my peers are fully prepared to again tackle these difficult issues 
so long as there is the same level of commitment from our Government 
counterparts. Until such time, we will continue to make progress with 
our State Government partners and our industry peers to ensure we have 
the necessary information to complete our duty to protect the critical 
infrastructure of the United States of America.

    Mr. Carney. Thank you. I now recognize Mr. Meenan to 
summarize for 5 minutes.

STATEMENT OF JOHN M. MEENAN, EXECUTIVE VICE PRESIDENT AND COO, 
              AIR TRANSPORT ASSOCIATION OF AMERICA

    Mr. Meenan. Mr. Chair, members thank you very much. I am 
pleased to be able to report that from the perspective of the 
airline industry, the information sharing system in place today 
is working very effectively, in part because of the business 
that we are in and the focal area of activity that has been 
post-9/11 has had the benefit of working very closely with both 
TSA and DHS literally from their startup, and as a result, the 
system that we have developed is working I think quite 
effectively.
    I would mention, for example, that the day of the Glasgow 
bombing, before I heard the report on the radio, we were 
already called to a conference call with TSA to discuss the 
implications of that for the industry. The flow of information 
is very good. The exchange of information is very good. We, in 
fact, report security incidents on a regular basis to the 
government. They are processed. They are looked at for a 
variety of different reasons, and then submitted back to the 
industry with the assessments necessary for everybody to 
understand the implications of them.
    I think our concern that I identified in our testimony is 
that we don't want to disrupt that system as a consequence of 
building analogous programs for other sectors. What we would 
like to do is share our experience with anyone who is 
interested to help them understand what works for us. It may 
not work as effectively for other sectors. But we don't want to 
disrupt what we have already accomplished. Beyond that, I think 
we are more than pleased with what is going on today, and we 
simply want to continue that. Thank you.
    [The statement of Mr. Meenan follows:]

                  Prepared Statement of John M. Meenan

    Madam Chairman and members of the subcommittee let me begin by 
thanking you for the opportunity to appear today. On behalf of our 
airline members, I would note at the outset that the focus of this 
subcommittee on information sharing and the associated application of 
analytical tools to understanding, managing and mitigating the risks of 
terrorism, is of paramount importance. The Air Transport Association 
and our member airlines are committed to providing you with our full 
support.
    With specific reference to the subject of today's hearing--the 
sharing of critical homeland security information--I am pleased to 
report that from the perspective of the airline industry, that system 
is working very effectively and efficiently. Over the past six years 
since 9/11, the relationships, lines of communication, timeliness, 
quality and mutuality of the information exchange between government 
and industry has developed very positively. While we fully appreciate 
the principle behind the development of a more structured Homeland 
Security Information Network (HSIN), we are very concerned that, in 
doing so, we do not in any way inhibit or interfere with the effective 
system we rely upon today.
    The relationship between the airline industry, the Transportation 
Security Administration (TSA), the Department of Homeland Security 
(DHS) and the broader law enforcement and intelligence communities is, 
of course, significantly more developed than that of other sectors. For 
some forty years we have been the subject of federal government 
regulation and direction relating to aviation security matters. Since 
9/11, and with the establishment of both TSA and DHS, that 
relationship, of course, has reached even higher levels of 
sophistication.
    We currently have in place well established conduits for the flow 
of information back and forth between industry and government. These 
conduits include routine reporting, telephone and electronic exchanges 
of information, the posting of Sensitive Security Information (SSI) on 
a TSA secure Web board, and classified briefings to the industry on a 
regular basis, as well as ``need to know'' briefings on developing 
situations. In addition, airline-specific information is conveyed 
through direct, secure communication (STU calls), as well as through 
local security briefings.
    The Security Directive system and emergency program changes are 
communicated electronically to provide real-time updates resulting from 
actionable intelligence. Joint DHS and Federal Bureau of Investigation 
reports are provided to the industry as deemed necessary along with 
Homeland Infrastructure Threat and Risk Assessment Center reports. 
Finally, of course, the airlines are the only sector we are aware of 
that is required to provide TSA, are with reports of suspicious 
activity. These reports, once scrutinized, analyzed and processed by 
TSA then returned to the industry in the form of weekly suspicious 
incident reports.
    In sum, the system we have in place is highly developed and 
specialized to accommodate the unique relationship between the airline 
industry and the responsible government authorities. We appreciate the 
importance of developing analogous systems for other sectors, and would 
welcome the opportunity to share our experience. We would, however, 
caution against any well intentioned but misguided effort to conform 
this specialized aviation system with a ``one size fits all'' approach 
applicable to all critical infrastructure sectors. We would be very 
concerned with requirements, through HSIN or in other ways, for 
duplicative, unnecessary or extraneous reporting--or any requirements 
that either slow the flow of information or inhibit the candid 
exchanges that are the hallmarks of our existing system.
    Our government's approach to civil aviation security is 
multilayered. This is the most sensible response to the shifting 
threats that our nation confronts. An integral element of that approach 
is the government's collection and analysis of passenger information 
for both domestic and international flights. Vetting passengers against 
government watch lists--in accordance with strict procedures that 
recognize that such lists need to be carefully ``scrubbed''--safeguards 
customer privacy and provides redress opportunities, substantially 
enhancing security for passengers and crew members alike.
    These information-centric passenger vetting programs are 
expanding--both here and overseas. They will create substantial new 
demands on governmental agencies, airlines and travelers. The problem 
is that these governmental passenger-information requirements, thus 
far, have only produced a mosaic. It remains to be seen if a coherent a 
picture will emerge.
    Given the security threats confronting civil aviation, there is no 
reason to believe that that the government's passenger-information 
needs will abate. Passenger data will be required for the Secure Flight 
Program and is currently required for CBP's Advance Passenger 
Information System and CBP's passenger reservation information access 
program. Moreover, foreign governments are imposing similar demands on 
airlines flying to their countries, including U.S. air carriers. This 
unmistakable international trend is most evident with the ever 
increasing number of countries that require APIS information but also 
is reflected in the Canadian requirement for access to passenger 
reservation information for international flights bound for Canada, 
including flights from the United States. Finally, the Centers for 
Disease Control has proposed a rule that would require that airlines 
collect and store broad new categories of passenger contact 
information.
    Information management is precisely where the government should be 
able to achieve a coherent policy. The continued absence of a 
comprehensive, governmentwide passenger information access policy is a 
matter of real concern to us. Nor is there any indication that any 
element of the federal government is inclined to assume the 
responsibility to develop and oversee such a comprehensive policy.
    This needs to change quickly. The U.S. government must produce a 
uniform passenger-information collection policy that applies to all of 
its civil aviation security and facilitation programs. Our government 
should also lead an effort to create such a policy for worldwide 
application.
    A uniform policy is indispensable to the efficient collection, 
retention and use of passenger-information. Multiple, uncoordinated 
information demands do not advance aviation security. Instead, they 
create unneeded complexity, wasteful duplication and unjustifiable 
costs to the government, customers and airlines.
    In conclusion, I would reiterate that from the perspective of the 
airline industry, we believe that our highly evolved information-
sharing system is working very efficiently and effectively. Given the 
extensive experience that has gone into its development, we believe it 
could well serve as a guide to facilitate appropriate sharing by other 
sectors. We look forward to continuing to adjust and fine-tune our 
system in close consultation with our TSA and DHS counterparts. We 
would, however, caution strongly against any program that seeks to 
force changes in this highly functional system simply for the sake of 
cross-sectoral consistency. At the same time, with respect to the 
collection of passenger data as opposed to the sharing of intelligence 
or suspicious incident reporting, we believe that better coordination 
between government agencies is imperative.
    Thank you very much for the opportunity to express our views on 
this important matter.

    Mr. Carney. Thank you, Mr. Meenan.
    Mr. Hovel for 5 minutes, please.

  STATEMENT OF RICHARD E. HOVEL, SENIOR AVIATION AND HOMELAND 
              SECURITY ADVISOR, THE BOEING COMPANY

    Mr. Hovel. Congressman Carney, Ranking Member Reichert, 
Congressman Dicks, it is a pleasure to be able to once again 
testify before this subcommittee on a topic that is so vital to 
industry. I had the honor of appearing before this subcommittee 
at your field hearing in Seattle just last May. As has been 
stated, I have over 35 years of cumulative law enforcement and 
aviation security experience, and I would like to mention 
including working closely with, among the subcommittee members, 
Congressman Reichert when he was sheriff of King County, 
Washington.
    We at Boeing are glad that we are having this hearing. We 
believe it is essential for the collective security of this 
Nation and the public and private sector to work together and 
share information we have about threats to our infrastructure, 
and I would like to highlight simply three this morning.
    One, the critical need for the fusion center partnership. 
This partnership is a multi-agency platform used by the 
government and the private sector to share vital threat 
information that could affect critical infrastructure here in 
the United States and abroad. In working together, it is vital 
that the public and private sector establish a bottom-up 
approach by integrating not only the information sharing 
requirements of industry but also the vast amount of 
information that industry can provide.
    For example, Boeing is a key producer of aerospace and 
defense products that are an important part of our economy. 
Given some of the products we make, we know we are a target for 
terrorist elements that would like to disrupt our ability to 
provide these products to our commercial customers as well as 
to the U.S. Government. The fusion center allows us to work 
with Federal, State, local law enforcement to identify 
potential threats to our facilities, assets and operations. For 
the safety and well-being of our company, many other companies 
and the Nation, it is essential that we continue the 
cooperation the fusion center has generated.
    Secondly, the private sector is acutely aware of the 
interdependencies and preparedness gaps that lie within the 
various elements of the critical infrastructure. But because of 
the complex nature of each of these elements as well as their 
interdependencies, it is vital that we have access to as much 
information as early as possible, both classified and 
unclassified.
    As my good friend the honorable Congressman Reichert well 
knows from his exemplary career in law enforcement, it is 
essential to have all the information available in dealing with 
the criminal element, which for the very same reasons is 
equally essential to the private sector. That is the 
information beyond what might be threat-specific, indicative of 
a long-term threat, or tactics and methods utilized by our 
adversaries.
    Third, we would like to thank Congress for passing the 
Critical Infrastructure Information Act of 2002. In addition, 
we are pleased with the final rule issued by the Department of 
Homeland Security on procedures for handling critical 
infrastructure information and the protection of it on 
September 1, 2006, in response to that very act. This law 
encourages the private sector to voluntarily share security-
related information about critical infrastructure and by 
providing special protection for that information.
    Going forward, it is extremely important for the public and 
private sectors to work together to protect our national 
security, economy, and public welfare. Similarly, passage of 
the Safety Act of 2002 is an essential enabler for 
participation and information exchange. This gives providers of 
anti-terrorism technology and services a system of risk 
management that limits potential legal liability. Without this 
protection, the private sector could not participate in this 
activity.
    Again, I thank you and certainly stand ready to answer any 
questions you might have.
    [The statement of Mr. Hovel follows:]

                 Prepared Statement of Richard E. Hovel

    The US Department of Homeland Security has defined the concept of a 
fusion center as a collaborative effort of two or more agencies that 
provide resources, expertise, and/or information to the center with the 
goal of maximizing the ability to detect, prevent, and respond to 
criminal, terrorist and other activity as affects our Critical 
Infrastructure Key Resources (CI/KR). To meet this challenge, fusion 
centers are evolving to an all-threats, all-crimes, all-hazards 
approach. Their intended function is to compile, blend, analyze, and 
disseminate information of various types such as Criminal Intelligence, 
Threat Assessments, Public Safety, Law Enforcement, Public Health and 
Social Services, to name a few. To establish this successfully, a 
``bottom up'' approach is necessary, integrating information 
requirements of the private sector to form the program foundation. Once 
accomplished, measurable progress will be dependent upon mutually 
understood expectations, capitalizing on already-existing relationships 
between the public and private sector partners.
    According to the recently released National Intelligence Estimate 
(NIE), the ability to detect broader and more diverse terrorist plots 
in our current environment is certain to challenge existing US 
defensive efforts, as well as the tools we use to detect and disrupt 
these plots. To meet this challenge will require a greater 
understanding of how suspect activities at the local level relate to 
strategic threat information, and how best to identify indicators of 
terrorist and other criminal activity in the midst of legitimate 
interactions. The private sector can offer fusion centers a variety of 
resources, including industry-specific subject-matter experts who can 
provide expertise when threats have been identified. This could include 
information pertinent to cyber crimes, risk assessments, suspicious 
incidents and activities, as well as information relative to the 
location of CI/KR. However, understanding and responding to the myriad 
of CI/KR interdependencies as well as preparedness gaps that exist 
between them, depends upon having the latest and most complete 
information available. Similarly, success in the public sector in these 
extremely sensitive areas is predicated on a thorough understanding of 
the far-reaching damage that a successful attack on CI/KR could have. 
Industry, as a whole, is acutely aware of the vital role one element 
may have in the successful continuity of operations of other elements. 
Because of the difference and complex nature of each element of the CI, 
as well as their already stated interdependencies, access to all 
information both classified and unclassified, which potentially or 
actually threatens them, is vital.
    One of the fundamental principals of fusion center partners should 
be the identification and sharing of terrorism-related leads, that is, 
any nexus between crime-related and other information collected by 
state, local, tribal and private sector entities suggesting the 
presence of a terrorist organization and/or likelihood of an attack. A 
clear understanding of the links between terrorism-related intelligence 
and terrorism-related information, e.g. flight training school, drug 
trafficking, etc, must be understood so as to identify those activities 
or events that are precursors or indicators of an emerging threat. It 
is essential that a partnership between public and private sector 
officials be solidified, so public sector representatives may become 
much more familiar with prevailing vulnerabilities and consequences in 
the private sector, of possible terrorist attacks. Likewise, the 
private sector must be better educated to the methods likely utilized 
by terrorist organizations, and the equipment and substances needed/
used to carry out an attack with associated planning activities. An 
outreach to non-government experts in academia and the Private sector 
can also add the advantage of alternative analyses and new analytic 
tools to broaden and deepen the intelligence community's perspective.
    Other information necessary, both classified and unclassified that 
is vital to the private sector is that which is threat-specific, 
indicative of a long-term threat and tactics and methods used by 
terrorist organizations to perpetrate an attack. One objective is the 
production of value-added intelligence products than can support the 
development of performance-driven, risk-based prevention, response and 
consequence management programs that will support specific protective 
measures to identify and disrupt potential terrorist attacks during the 
planning and early operational stages. Benefits of this will be 
realized in the improved flow of information from a common operating 
picture, which supports private sector resiliency while satisfying 
public sector mission requirements. More specific information needs 
attendant to individual elements of the CI/KR may best be the product 
of Key Resource Sector Councils, the American Society for Industrial 
Security (ASIS) or other OSAC-like groups that can speak to the more 
in-depth characteristics of each element.
    On a related note, Boeing would like to thank Congress for passing 
the Critical Infrastructure Information Act of 2002. We are also 
pleased with the Final Rule issued by the Department of Homeland 
Security (DHS) on Procedures for Handling Critical Infrastructure 
Information, on September 1, 2006, in response to that Act.
    This law encourages the private sector to voluntarily share 
security-related information about critical infrastructure by providing 
special protection for that information. Going forward it is extremely 
important for the public and private sector to work together to protect 
our national security, economy, and public welfare.
    The type of information that Boeing provides includes assessment of 
the vulnerabilities of our aviation infrastructure, which includes our 
airplanes. Boeing believes that this information and the thorough risk 
management analysis that TSA and Boeing are working on with others in 
government and industry are critical to improving security, safety and 
efficiency in U.S. commercial aviation. The U.S. aviation 
infrastructure remains a potential target for future terrorist strikes 
and the government and private sector need to keep a collective 
watchful eye. The PCII protections are essential to this work.
    According to the NIE, Al-Qa'ida's homeland plotting is likely to 
continue to focus on prominent political, economic and infrastructure 
targets with the goals of producing mass casualties, visually dramatic 
destruction, significant economic aftershocks and/or fear among the US 
population. It goes without saying that Al-Qa'ida will continue to try 
to acquire and employ weapons of mass destruction (WMD) and would not 
hesitate to use them if it develops what it deems is sufficient 
capability. There are increasingly aggressive internet sites espousing 
anti-US rhetoric and actions, and a growing number of radical, self-
generating cells in Western countries, indicating that the radical and 
violent segment of the West's Muslim population is expanding within the 
US. Other non-Muslim terrorist groups will also most likely conduct 
attacks over the next three years given their violent histories. To 
date, the bulk of the deadly attacks experienced, have been directed 
toward the private and quasi-private sectors. The loss of lives and 
damage to property suffered both domestically and overseas has been 
astronomical, giving companies a vested interest in joining in the 
fight. Currently, the resources of the private sector are hardly being 
tapped. Instead for the most part, businesses are (still) sitting on 
the sidelines relying on the US government for protection. This not 
only weakens our ability to eliminate terrorism, but it overlooks the 
fact that this is a shared problem that involves us all. The chance of 
winning the fight against terrorism exists, but we all need to 
contribute to the solution--a solution that necessitates expansion of 
the intelligence gathering role beyond its limits to date, and 
overcoming the crippling attitude that this menacing threat is the 
responsibility of the government alone.

    Mr. Carney. Thank you, Mr. Hovel. And I would like to thank 
the panel for their testimony. I will now recognize myself for 
5 minutes or so for questions, and we will continue the 
questions with the rest of the panel.
    My first question is, Mr. Johnson, on the timeliness issue. 
How from your perspective do we fix it? What needs to happen to 
improve the timeliness?
    Mr. Johnson. Well, I think on several fronts. One is that I 
think we are moving in the right direction to determine what 
information each of these sectors needs to receive. But the 
other is, is that we have to develop an atmosphere where that 
when there is an incident, whether it is domestic or 
international, when this occurs, that that information 
regardless of how well we have been able to go back and ensure 
that it is accurate and that those things take time, from our 
standpoint we are looking for a remediation plan. Do I need to 
step up protection if there are some things that I need to take 
place now to ensure that that doesn't happen to any of our 
infrastructure? So speaking at it from that standpoint, the 
quicker we have that information that is pushed to us that we 
are not relegated of calling a phone number to find out 
information about, but we all have numerous devices now that 
connect us to information. And by pushing that information out 
versus putting it there for us to come find it I think is the 
one change that I think would benefit us greatly, is that we 
get notified of the incident that there be continual updates 
providing information.
    As that analytical part goes on, if they determine that the 
information is not accurate, what is going out on the open 
source areas and they can provide that to us, that too is of 
utmost benefit, but waiting to do that until they have had an 
opportunity to assess it often puts us in a position that we 
are having to make decisions about whether we are expending 
more moneys to protect certain infrastructure or whether we are 
not. And obviously we need notification of those issues as 
quickly as we can.
    Mr. Carney. Let me ask you from this perspective then, does 
SCANA, for example, have somebody or an office that monitors 
the Web sites that sees what is being pushed out?
    Mr. Johnson. We do. We have individuals that we have that 
go to that. Primarily our quickest asset that we have found of 
discovering of breaking news and information is the cable news 
networks. That is where we find things out and we are then 
relegated to find our contacts within the various communities 
of interest and different areas of homeland and Federal and 
State law enforcement.
    Our fusion center is a huge assistance to us, but they 
currently are not 24/7. When they are there, we get good 
notification. But they too are trying to find a methodology by 
which they are going to get pushed out.
    Mr. Dicks. If you will just yield briefly on that point for 
a second.
    Mr. Johnson. Yes, sir.
    Mr. Dicks. Does your fusion center have Federal officials 
in it? Or is that a State fusion center?
    Mr. Johnson. The implementation is, this summer, of a DHS 
official present in our fusion center. That is very new and 
recent.
    Mr. Dicks. Is the FBI there, other Federal agencies?
    Mr. Johnson. There is a Federal figure, they call the--the 
actual intelligence group has a representative there as well. 
Yes, sir.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Carney. Thank you. You will be happy to know that, for 
example, over at the Pentagon they also have CNN on and FOX 
News too.
    Mr. Johnson. I am sure they do.
    Mr. Carney. This is for everyone. How much information do 
you push up?
    Mr. Johnson. I can speak to ours. Any incident that we have 
of suspicious activity around any of our facilities that have 
critical infrastructure, as it has been deemed critical by our 
assessment, we push that information to our fusion center. 
Certainly we have plans in place that should we have any kind 
of an obvious sabotage or an attack, Federal law enforcement is 
notified along with our State homeland security and law 
enforcement officials and the Department of Homeland Security 
would be notified in that respect as well should that occur.
    Mr. Carney. Mr. Meenan.
    Mr. Meenan. From the airlines' perspective, we are actually 
under regulation required to report suspicious incidents, not 
that we wouldn't do that anyway. It really becomes a matter of 
making sure that what we are reporting is significant, is 
important enough to--I mean, you have to sort through these 
things. You can't so overburden the system with every anomaly 
that you end up losing any perspective on what you are 
reporting. So I would say we have struck a good balance at this 
point. We are very satisfied.
    Mr. Carney. I will get right to you, Mr. Hovel. But along 
that same vein, when we see blocks of cheese with wires wrapped 
around them going through airports, is that considered not 
anomalous or how--
    Mr. Meenan. That I think is a good example of a report that 
draws a lot of public attention that is more in the nature of a 
routine report that we receive with great regularity. That is 
one I think TSA indicated some 90 reports of things going on. 
That is why it is important that the experts, the intelligence 
community, the law enforcement community be looking at these 
things to determine what is more significant and what isn't?
    It is also, I think, one of the reasons that we are 
concerned that this information be handled with the appropriate 
amount of discretion as well.
    Mr. Carney. Mr. Hovel.
    Mr. Hovel. Similarly, we too are governed by the 
requirements to run the information by the Department of 
Defense. But aside from that, we are in a little bit different 
situation in that my office is unique in the sense that it 
represents both the classified side of the house to Department 
of Defense as well as the commercial side. Consequently, my 
office deals with all matters of counterintelligence, 
counterespionage and counterterrorism, all three of those, 
which you can see quickly and easily are obviously all driven 
by information.
    So it is extremely vital to us to have the same information 
as early as possible without waiting for it to be vetted as to 
whether it is even actionable or not. Consequently, we do 
report incidents that take place up to the various chains both 
on the defense side and on the commercial side to the levels 
and in the verbiage where it is appropriate to the audience, 
where it is warranted. But it also gives us the opportunity to 
analyze that intelligence ourselves with respect to our own 
operations to determine the relevancy.
    Mr. Carney. Thank you. I now recognize the subcommittee's 
ranking member, Mr. Reichert.
    Mr. Reichert. Thank you, Mr. Chairman. Welcome to all of 
you. Mr. Hovel, nice to see you again. I wanted to touch on--
Mr. Meenan, you suggested that the airline industry is having 
success in communicating with the Federal Government. What do 
you think that success is due to?
    Mr. Meenan. I think it is due to--fundamentally it is due 
to relationships. I mean from the very start of TSA's activity 
and indeed under its predecessor functions over at the FAA, we 
have a lot of personal relationships, a lot of solid business 
relationships that have grown into the kind of communication 
that I think is critical to developing the right flow between 
the industry and government. Those are obviously supplemented 
at this point with a wide array of support that has come, as 
you heard from the first panel, from other government agencies 
and entities, and the mechanisms to do it. We have got the 
electronic communications capability, everything from you know 
routine e-mails to there was a classified Web site with 
sensitive security information that is available to our folks. 
It is a very comprehensive system, and it is I think at this 
point quite productive. It improves daily, and we want to 
continue to improve it.
    Mr. Reichert. It sounds kind of simple. Build a 
relationship, build some trust, and then you build a system to 
share the information.
    Mr. Meenan. It has worked that way for us.
    Mr. Reichert. So in this process, where do you get your 
information from? Is it from TSA?
    Mr. Meenan. Primarily from TSA. But we also receive routine 
reports, high track reports, we receive FBI briefings, we 
receive from a variety of different sources of information. But 
our principal focus obviously for the airline industry is with 
TSA.
    Mr. Reichert. Have any members of the panel identified any 
chokepoints in sharing information back and forth? I know the 
question has already been asked about timely. But if it is not 
timely, why isn't it timely? Where is the roadblock if there is 
one?
    Mr. Hovel. Congressman Reichert, it is a chokepoint for us 
where we find that information is not passed along to us 
because of one or another reasons. One, it is possibly not 
deemed as actionable. Second of all, and most importantly, it 
may well not be understood by those who are evaluating the 
information, and that leads back to my previous comments 
concerning the interdependencies. Because of the intricate 
nature of each of the elements of the critical infrastructure 
and their significant interdependencies upon each other, it is 
vital that we be able to get as much information as quickly as 
possible to look at that information relative to these various 
elements. Then and only then are we going to be able to analyze 
it to see what implication, what relevancy it might have as 
well as what dangers it might pose.
    Aside from that, other information that we get is coming to 
us in a timely manner.
    Mr. Reichert. Is the fusion center a benefit for your--and 
I know you have recently become a member.
    Mr. Hovel. Yes, it certainly has. In fact, sitting behind 
me is a gentleman that is our intelligence analyst that is 
assigned to the fusion center.
    Mr. Reichert. I have no further questions. Thank you.
    Mr. Carney. Thank you, Mr. Reichert. The Chair now 
recognizes the gentleman from Washington, Mr. Dicks.
    Mr. Dicks. Mr. Meenan, one thing that has troubled me, 
maybe you can help me on this and maybe you can't, one of the 
issues that, you know, we talk about this relationship with TSA 
and we have airplanes flying to the United States. One of the 
problems has been getting the names checked before the 
airplanes take off. Can you explain that to us? That seems to 
me to be one of those things that we have just got to fix. And 
is it being fixed?
    Mr. Meenan. It is being worked on every day. Actually, the 
names are checked before the airplanes take off. The 
information is exchanged. In my prepared remarks, I mentioned 
it is an area of difficulty for us because unlike on the 
intelligence and information sharing side of things, the 
industry is hit with multiple different requests from various 
government agencies for data elements about our passengers, our 
customers. There is very little effective coordination between 
all of the government agencies involved there, and it is a 
matter then of trying to satisfy multiple different masters.
    We have urged the Department of Homeland Security to work 
across the government to try to minimize the duplication that 
is going on, make it as streamlined as possible, agree on what 
the data elements are, and let us build a system once and for 
all that works to supply all these agencies with what they 
need, rather than these pop-ups that we are dealing with today.
    Mr. Dicks. And that still hasn't happened?
    Mr. Meenan. It has not happened at this point. But I will 
say people are trying to address it. It is a very complicated 
set of information involved.
    Mr. Dicks. Do you have any time frame on which you think 
this will get resolved?
    Mr. Meenan. Not at this point. But it is being addressed 
every day. There are, as I say, levels of complication to it. 
We will be happy to come by and brief you in more detail on it, 
but it is something that we are working on, and I think the 
government is working on as well.
    Mr. Dicks. One area of concern to the Congress has been the 
fact that we go through all this complicated procedure to check 
all the passengers, but we don't do it with the workers at the 
facility. What is your take on that? Or we don't do it to the 
same extent.
    Mr. Meenan. I think that is something of a 
misinterpretation. We actually know a lot about the workers. We 
do a lot of checking of the workers. But what we are concerned 
about is there is talk, there is discussion about 100 percent 
screening, for example, of employees moving to and from secure 
areas at the airport. Many of those are the pilots who fly the 
airplanes, who we trust to fly the airplanes. We don't know 
that that is an effective and efficient use of government 
resources to screen them to make sure that, you know--we want 
them to be fundamentally screened. But there are limits to what 
should be done. Same thing with mechanics, people who are 
bringing tools onto airplanes. You know, we let them do that, 
and yet we are saying they need to pass through a checkpoint on 
the back side of the airplane to go to work. There again, some 
practicalities associated with that that we think just need to 
be thought about very carefully.
    Mr. Dicks. Well, as someone who has been on this committee 
for a number of years, and you look at what the consequences of 
9/11 were economically to the country and what we have had to 
do in order to try to better secure the country, I mean the 
ramifications of this are just immense, especially for the 
airline industry and for Boeing, who was adversely affected 
when their customers can't buy airplanes because people have 
stopped traveling. It is a major, major problem, and one that 
has concerned us. And we want to try to work with Homeland 
Security to improve this process.
    And again, I think when we have these hearings we should 
have the private sector people first and get all the issues. 
Mr. Chairman, I know it wasn't your decision. And then bring 
the government witnesses up so that they can have the benefit 
of having heard the people from the private sector first. But I 
think as you have suggested, all of you, that this is a work in 
progress. And I am hopeful that we can continue by having 
oversight hearings which I think even the previous Congress did 
a good job on, had a lot of hearings which brought these issues 
out. And when you do that, then sometimes, most of the time the 
agencies will respond, because they recognize they want to do a 
better job. At least we hope so.
    Mr. Meenan. And if I might, it is one of the reasons we 
find the work of this committee so important. The key to good 
security is risk analysis, understanding the risk and applying 
the resources as efficiently as you can to achieve the goal you 
are seeking. And I think that is something that we are all 
learning to do better over time. And it is going to continue to 
improve.
    Mr. Dicks. You can't defend against everything. You have 
got to pick out the ones, the truly big possibilities where--
and the airlines unfortunately represent that kind of a 
possibility, as we learned on 9/11 and subsequent to that, that 
it is something that is continuing to be a problem. So anyway, 
we appreciate your testimony, and we appreciate your working 
with the agencies to try to help them improve.
    Thank you, Mr. Chairman.
    Mr. Carney. Thank you, Mr. Dicks. I just have a couple of 
questions before we wrap it up today. Mr. Johnson and Mr. 
Hovel, does the private sector trust the government with 
proprietary information? I mean, is this an impediment to the 
relationship of information sharing? Is it a facilitator of it? 
Are there barriers we need to work on here?
    Mr. Johnson. I can speak for our sectors and the peers that 
I have spoken with that there are still some issues. There was 
an incident that I outlined in my testimony that was provided 
to you earlier where a representative of or sector was in a 
meeting with some contractors. And during that conversation a 
document was presented that was absolutely protected and 
proprietary and had been provided under the PCII status, yet 
that document was out. Those incidents obviously make it very 
difficult. I think there is a desire to work with and trust the 
government with that information. But in some of those 
instances, some of that information is so crucial to our 
business units standpoint that there is still some--and will 
continue to be some concern about arbitrarily turning that 
document over from that standpoint.
    Mr. Carney. Mr. Hovel.
    Mr. Hovel. We too have some concern. We have not had any 
problems, however, with that. We have been very, very happy 
with the protections afforded us by the law that has been 
enacted. We look very forward to putting into place the ACAMS 
element of Operation Archangel to feed the information into the 
database. We are right on the threshold of accomplishing that.
    Mr. Carney. Okay. Again, I heard when Mr. Dicks was asking 
his questions the phrase ``duplication of effort'' again, and 
we assured the previous panel that that was really not 
happening. But it is happening from your perspective? Mr. 
Hovel?
    Mr. Hovel. Yes, it is happening but it is not necessarily a 
bad thing. Because oftimes we may not be privy to a particular 
channel of information that comes in. If there are multiple 
channels, then the law of averages is going to catch us sooner 
or later to be able to get that information in front of us. At 
the same time it is interesting to hear the different 
variations of interpretation of incidents too. So it is a 
critical thinking----
    Mr. Carney. Well, is it interesting or perplexing?
    Mr. Hovel. It can be both. It certainly has in the past.
    Mr. Carney. Understood.
    Mr. Meenan.
    Mr. Meenan. It is something we are concerned about, but I 
must say I was reassured with the testimony from the first 
panel today that some of our concerns about the development of 
the HSIN network may be misplaced. We haven't been fully 
briefed on it. We have a meeting set I think next week and we 
just want to ensure that it is run as efficiently as possible.
    Mr. Carney. Okay. Thanks. Mr. Johnson.
    Mr. Johnson. I concur with the earlier speakers. But I will 
tell you I probably have more concern about not so much the 
duplication of efforts as it is to complete a project. We have 
had multiple issues, particularly with HSIN that have begun 
only to find that during a period of time there seems to be a 
lull that we are now moving in a different direction. It 
appears that we are constantly working to reinvent what we 
discussed and talked about before. And that seems to be the 
more duplicative part than it is duplicative efforts among the 
various parts of the Department.
    Mr. Carney. Okay. I understand. I have no further 
questions. I will, however, recognize my good friend, Mr. Dent, 
from Pennsylvania for 5 minutes or so.
    Mr. Dent. Thank you, Mr. Chairman. I appreciate that. And I 
guess my question would be to Mr. Meenan and to Mr. Hovel, 
especially with respect to the information that you are 
currently receiving or that is being made available to you from 
the Homeland Security Information Network, the HSIN. Are there 
any suggestions that you can make to DHS that would essentially 
help that agency provide you with more useful realtime 
information and intelligence? From your perspective and maybe 
from the association's perspective.
    Mr. Hovel. Certainly. There are some things that could be 
done to--one of the key factors is expediting the issuance of 
information in a more timely fashion. One of the problems that 
we have experienced in the Northwest is with what is called 
Northwest Warning and Alert Response Network, NWWARN. At first 
our network in NWWARN was attached to the greater communication 
platform of HSIN CI, and we found it was not robust enough. So 
we have consequently gone with another platform that does have 
the flexibility and the resiliency that is necessary to 
continue operating what it is that we believe and feel is 
necessary for at least our part of the country.
    Mr. Meenan. From the airline's perspective, I think because 
we have been so central to a lot of the post-9/11 activity at 
both DHS and TSA, our information sharing and the products we 
receive I think are pretty well developed and are pretty 
sophisticated at this point. From an industry perspective and 
down to the individual airline perspective, there are lots of 
close daily, hourly communications. And obviously we are always 
looking for areas to improve. But right now I think if 
anything, our sector could probably be more helpful to some of 
the others in understanding how to develop their own mechanisms 
rather than putting too much more input into that. It is 
working pretty well at this point.
    Mr. Johnson. Mr. Congressman, I too would go back and 
concur with the comments provided by my colleague with Boeing. 
We too have had the same situation with the Southeast side of 
HSIN CI. There was a great deal of work, diligent work on both 
the Federal Government side and the private sector side to 
identify these sector representatives, to vet these 
individuals, and to go out and market and sell that program 
among the various critical infrastructures, only to find that 
the actual platform now was not robust enough to allow us to 
continue on it, and now we are going down a different road 
where we have a spin-off from the Southeast Emergency Response 
Network, SERN, that we are now having to go back and try to 
remarket and go back to the same individuals where we have 
already been that we did not produce to try to encourage them 
to participate in yet another program. And that becomes more 
difficult each and every time we have to go back and do that. 
There is only so much commitment and trust that these 
individuals are going to put into their time. When you are 
dealing with the private sector, they are used to determining 
what an issue is, finding the answer and moving forward, not 
keep coming back and revisiting the same information again and 
again and again.
    Mr. Dent. So are you basically suggesting that the 
information that you are being asked to provide to DHS creates 
an undue burden for your company in many cases?
    Mr. Johnson. In circumstances, that would be correct.
    Mr. Dent. Is that the sense of Boeing, too?
    Mr. Hovel. Yes, sir, that is the case.
    Mr. Dent. What can we do--why don't you just elaborate on 
what you think we can do to make our compliance requirements 
less burdensome? What should we be doing?
    Mr. Johnson. In our area what I am speaking to is not so 
much compliance as it is encouragement to utilize. Take this 
technology provided by the government to collaborate and 
exchange and receive information. I don't know if we have 
missed the ball going into it from an assessment standpoint or 
what the technology needs to be and exactly how much 
information there is. I almost come to the point that I feel we 
need to look for small successes instead of large failures. 
Let's take the low hanging fruit. It may not be 100 percent of 
what we need. But let's find something that we can complete and 
say that it is a success and then build off of that to get to 
where we need to be. Maybe instead of trying to take the entire 
tree, let's take the apple first and work our way up, may be a 
suggestion that I would have.
    Mr. Hovel. Congressman Dent, there is another element that 
factors into this as well, and the distinguished colleague from 
ATA was able to bring that element to light, and that is the 
differences that exist from ATA operating in a regulated 
environment from a security standpoint to, say, SCANA or the 
Boeing Company, which does not operate in a regulated 
environment. We are finding the balance of information that 
does get transmitted to the regulated side far and away exceeds 
that of what is received otherwise by us included. So just the 
information that is shared and the time of it that it is shared 
within is critical to us. But because we are not regulated, we 
don't get a timely response necessarily in all circumstances.
    Mr. Johnson. Congressman, just for your benefit, we too 
work in a regulated area. Obviously we have nuclear as well as 
FERC and other things that we work within. And certainly from 
the compliance standpoint, the exchange and flow of information 
there is much better than on the business units we have that 
may not be so heavily regulated. And I can speak from other 
sides of the private sector and other areas which do not have 
those compliance issues. These are the ones we keep coming back 
to again and again, asking them to participate and provide. It 
is just--that is the hard part, is to keep going back to the 
same individuals over and over.
    Mr. Carney. Thank you, Mr. Dent. To continue along this 
course just for a moment, how do we convince them to come back? 
What can we do? What can the government do? What can Congress 
do from your perspectives to allay their fears?
    Mr. Johnson. I can only speak from our successes that we 
have had in our State of South Carolina. On the State level, we 
have made good progress with sharing information. We have 
demonstrated our ability to do that among our law enforcement 
agencies where all of their incident reports are now shared 
into a common data warehouse, that they can come in for the 
first time and be able to query that information from other 
agencies. That has never existed before. We did that through 
the assistance of the National Law Enforcement and Corrections 
Technology Center Southeast, funded by the Federal Government 
through the National Institute of Justice, who are tremendous 
brokers of--an honest broker of technology for law enforcement. 
I think we can replicate that throughout the private sector. 
Getting the ability to access that assistance is something 
Congress can make happen that I think will assist us.
    There are success stories there on the State level where we 
look and derive for particular intelligence and information 
from our fusion center to push out to the members of our 
private sector and the State. But it takes a great deal of 
effort, obviously, to do that, where the Federal Government can 
come in and whether they contract with someone to push this 
information out on a timely basis, whether it be situation 
awareness information, those things are all there. It may not 
be in the best interests of the timing of both the customers 
and the government for the government to take that role. We 
need to look at what areas we can contract out and utilize that 
where it benefits us, I think would be an area that we 
certainly ought to consider.
    Mr. Carney. Anybody else care to comment? All right. Well, 
I want to thank the panel for their valuable testimony this 
morning. It is enlightening from both perspectives, from all 
perspectives. Please be aware that there is a possibility that 
the committee and members will have further questions that we 
would like a timely response to. It is not always the case, but 
we would like a timely response.
    Hearing no further business before the subcommittee, we 
stand adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
